<html>
<title> - THE FUTURE OF ADVANCED CARBON CAPTURE RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                     THE FUTURE OF ADVANCED CARBON
                    CAPTURE RESEARCH AND DEVELOPMENT

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 22, 2019

                               __________

                           Serial No. 116-58

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



       Available via the World Wide Web: http://science.house.gov
       
       
       
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
38-397 PDF            WASHINGTON : 2020        
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
VACANCY
                                 ------                                

                         Subcommittee on Energy

                HON. CONOR LAMB, Pennsylvania, Chairman
DANIEL LIPINKSI, Illinois            RANDY WEBER, Texas, Ranking Member
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              RALPH NORMAN, South Carolina
KENDRA HORN, Oklahoma                MICHAEL CLOUD, Texas
JERRY McNERNEY, California           JIM BAIRD, Indiana
BILL FOSTER, Illinois
SEAN CASTEN, Illinois

                         C  O  N  T  E  N  T  S

                           November 22, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Randy Weber, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     6
    Written Statement............................................     7

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    11

                               Witnesses:

Dr. Ramanan Krishnamoorti, Chief Energy Officer, Professor of 
  Chemical Engineering, University of Houston
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Jeffrey Long, Faculty Senior Scientist, Materials Sciences 
  Division, Lawrence Berkeley National Laboratory
    Oral Statement...............................................    55
    Written Statement............................................    57

Mr. Greg Kennedy, Senior Project Director, NRG Energy; and 
  Director of Asset Management, Petra Nova Project
    Oral Statement...............................................    62
    Written Statement............................................    64

Mr. Roger Dewing, Director of Technology CCUS, Air Products and 
  Chemicals Incorporated, Inc.
    Oral Statement...............................................    70
    Written Statement............................................    72

Mr. Nigel Jenvey, Global Head of Carbon Management at Gaffney, 
  Cline & Associates
    Oral Statement...............................................    76
    Written Statement............................................    78

Discussion.......................................................    82

              Appendix: Additional Material for the Record

Presentation submitted by Dr. Ramanan Krishnamoorti, Chief Energy 
  Officer, Professor of Chemical Engineering, University of 
  Houston........................................................   104
    White Paper: https://pdfs.semanticscholar.org/970b/
      62daa17a329a98f03
      bcd33233199f42c5bcf.pdf?_ga=2.85876569.1336167076.1574703669
      -796248402.1574703669......................................   125
    Report: https://uh.edu/uh-energy/research/ccme/content/uh-
      energy-ccme-white-paper-series-03-2019-web.pdf.............   126

Presentation submitted by Mr. Nigel Jenvey, Global Head of Carbon 
  Management at Gaffney, Cline & Associates......................   127


                     THE FUTURE OF ADVANCED CARBON
                     
                    CAPTURE RESEARCH AND DEVELOPMENT

                              ----------                              


                       FRIDAY, NOVEMBER 22, 2019

                  House of Representatives,
                            Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:17 a.m., in 
the Waldorf Astoria Ballroom, Hilton University of Houston, 
4450 University Dr., Houston, TX, Hon. Lizzie Fletcher 
presiding.
    Present: Representatives Fletcher and Weber.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Fletcher. This hearing will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Good morning and welcome to today's field hearing, the 
Future of Advanced Carbon Capture Research and Development.
    I am Lizzie Fletcher. I represent Texas' 7th congressional 
District, and I am delighted to be here with all of you this 
morning.
    And I am going to turn the floor over to Mr. Weber for an 
opening statement. He's the Ranking Member of the Subcommittee.
    Mr. Weber. Well, good morning, and thank you, Chairwoman 
Fletcher. I'm excited to be back in Texas. I think I'd rather 
be here than just about anywhere. We're going to have the 
opportunity today to hear about ground-breaking new research 
and development in carbon capture technology.
    Today's hearing is a chance for private-sector 
organizations to highlight their leading roles in fossil energy 
innovation through carbon capture, through storage, and through 
utilization technologies. The scope and range of technologies 
being pursued is as vast as the untapped oil and gas reserves 
right here in good old Texas.
    Coal and natural gas, believe it or not, make up about 64 
percent of the net electricity generation in the United States, 
and that number is expected to only dip to 58 percent by the 
year 2040. Simply put, the use of fossil fuels isn't going away 
anytime soon.
    We have incredible domestic fossil energy resources, and 
our economic stability depends on the power that those 
resources produce.
    So it should come as no surprise that a robust industry has 
developed right here at home focused on investing in the next 
generation of technologies to produce and use American fossil 
fuels more efficiently, more safely, and at a lower cost for 
American consumers.
    In fact, I think I'm well within my rights to label 
Houston, Texas as the carbon capture capital of the world, and 
I would include my District 14 with that. We've seen incredible 
research and technology successes through a collaborative 
public-private partnership right here in our backyard, multiple 
partnerships.
    One such example is Air Products, a production facility in 
my district right down the road in Port Arthur, Texas. This 
facility, which was sponsored in part by the Department of 
Energy (DOE), captures over 90 percent of the CO<INF>2</INF> 
from the product streams of two commercial-scale steam methane 
reformers and injects that carbon dioxide into the West 
Hastings oil field for enhanced oil recovery, which used to be 
in my district when I was a State Rep., back before I got 
demoted to Congress.
    In return, Department of Energy has estimated that an 
additional 1.6 to 3.1 million barrels of oil will be produced 
annually from this CO<INF>2</INF> application process.
    Now, let me put that in perspective for you all. Today's 
price of Texas West Intermediate Crude is $57 a barrel, OK? So 
that would mean, if it's 1.6 million to 3.1 million barrels of 
oil, that's a savings of $91,248,000. If it's at the higher 
number, 3.1 million, that would be a revenue stream of 
$176,793,000. It means jobs, it means economic stability, it 
means energy security. It is absolutely incredible to what 
we're trying to achieve.
    Another example is the Petra Nova facility just a few miles 
southwest of here, a facility my colleagues and I will have a 
chance to visit this afternoon. This facility captures carbon 
dioxide from a coal-fired plant and then, much like the Air 
Products facility, routes that CO<INF>2</INF> to the West 
Ranch, which was in my district when I was a State Rep. It's 
about probably 35, 40 miles from here. They use it for enhanced 
oil recovery. Within the first 10 months of opening, this field 
saw oil production boost by 1,300 percent using enhanced oil 
recovery.
    Let's do the math again. If you took those same number of 
barrels, if you took 1.6 million barrels, it goes up 
$91,248,000. That's unbelievable, the amount of difference in 
price. So it's incredibly important for us.
    Additionally, the Department of Energy is making smart, 
targeted investments in early stage research to advance the 
next generation of production and emissions control 
technologies through the DOE Fossil Energy Research and 
Development, what we call FER&D, program.
    Now, listen to these numbers. It's funded at $740 million. 
Remember the hundreds of millions of dollars from the one 
facility I just cited? Is this program paying off? You'd better 
believe it is. It's funded at $740 million, and it conducts 
research that supports clean, affordable, and efficient use of 
domestic fossil energy resources. The complex fossil energy 
resource challenges we face today will require an all-hands-on-
deck approach: Academia, industry, the Department of Energy. 
They are the ideal partners. But I want to add one group to 
that, and that is the environmental groups. We ought to all 
work together to make sure this is working for the best 
possible outcome.
    With support from the Department of Energy, the technology 
developed and deployed at facilities like Air Products and 
Petra Nova are reducing the emissions from local refineries and 
producing affordable American fuel to power our economy.
    So that's basically it. I look forward to hearing about 
these partnerships from our witnesses today, and I want to 
thank all of our witnesses for testifying; and, Chairwoman, 
thank you for holding the hearing.
    And I yield back.
    [The prepared statement of Mr. Weber follows:]

    Thank you, Chairwoman Fletcher. I'm excited to be back home 
in Texas and have the opportunity to hear about groundbreaking 
new research and development in carbon capture technology.
    Today's hearing is a chance for private sector 
organizations to highlight their leading roles in fossil energy 
innovation through carbon capture, storage, and utilization 
technologies. The scope and range of technologies being pursued 
is as vast as the untapped oil and gas reserves here in Texas!
    Coal and natural gas make up 64 percent of net electricity 
generation in the United States, and that number is expected to 
only dip to 58 percent by 2040. Simply put, the use of fossil 
fuels isn't going out of style anytime soon.
    We have incredible domestic fossil energy resources, and 
our economic stability depends on the power they produce.
    So it's no surprise that a robust industry has developed 
here at home focused on investing in the next generation of 
technologies to produce and use American fossil fuels more 
efficiently, more safely, and at a lower cost for American 
consumers. In fact, I think I am well within my rights to label 
Houston, Texas as the carbon capture capital of the world!
    We've seen incredible research and technology successes 
through collaborative, public-private partnerships right here 
in our backyard. One such example is the Air Products 
production facility in my district, just down the road in Port 
Arthur.
    This facility, which was sponsored in part by the 
Department of Energy, captures over 90 percent of the CO2 from 
the product streams of two commercial-scale steam methane 
reformers and injects that carbon dioxide into the West 
Hastings oilfield for enhanced oil recovery. In return, DOE has 
estimated that an additional 1.6 to 3.1 million barrels of oil 
will be produced annually from this CO2 application process.
    Another example is the Petra Nova facility, just a couple 
miles southwest of here - a facility my colleagues and I will 
have the chance to visit this afternoon. This facility captures 
carbon dioxide from a coal-fired plant and then, much like the 
Air Products facility, routes the CO2 to the West Ranch oil 
field, also in my district, for enhanced oil recovery. Within 
the first 10 months of opening, this field saw oil production 
boost by 1,300 percent.
    Additionally, the Department of Energy is making smart, 
targeted investments in early-stage research to advance the 
next generation of production and emissions control 
technologies through the DOE Fossil Energy Research and 
Development (FER&D) program.
    Funded at $740 million in FY 2019, FER&D conducts research 
that supports clean, affordable, and efficient use of domestic 
fossil energy resources. The complex fossil energy research 
challenges we face today will require an all hands-on deck 
approach. Academia, industry, and the Department of Energy are 
the ideal partners to develop these solutions.
    With support from DOE, the technology developed and 
deployed at facilities like Air Products and Petra Nova are 
reducing the emissions from local refineries, and producing 
affordable, American fuel to power our economy.
    I look forward to hearing more about these partnerships 
from our witnesses today. I want to thank our all witnesses for 
testifying today, and the Chairman for holding this hearing.

    Chairwoman Fletcher. Thank you very much, Mr. Weber. I'm 
grateful for your work to bring us together for this hearing 
today on the future of advanced research and development on 
carbon capture, and it's fitting that we meet here in Houston.
    I also thank the University of Houston and Dr. Khator for 
hosting us this morning.
    Houston, as many of us in the room know, is a place of big 
ideas. It always has been. Perhaps more important, it is a 
place where big ideas become reality, and that is the subject 
of today's hearing, very big ideas that are becoming a reality 
right here in Houston.
    Here in Houston, we know energy. When it comes to energy 
innovation, this is its home. Right now, we are experiencing an 
energy renaissance, one that has reduced costs and increased 
investment here and around the world.
    Texas, as we all know, is the largest producer of oil and 
natural gas in the country. Texas is also the leader in 
developing wind energy in the country. We have installed 3-
times as much wind power as the next leading State. And Texas 
is also the sixth leading State when it comes to solar power 
and solar energy capacity.
    So, the other thing we know here in Houston is that climate 
change represents a real and growing threat. We are already 
experiencing its effects, and we know that reducing emissions 
is a key to addressing climate change.
    The advances in technology that have transformed our energy 
economy have substantially reduced U.S. carbon emissions. 
Replacing coal-fired power plants with natural gas plants has 
contributed more to the reduction of domestic carbon emissions 
than any other effort.
    Developing and utilizing more renewable energy sources is 
another critical part of our overall effort.
    But we need to do more.
    That is why I am glad that we are here today to talk about 
carbon capture research and development.
    The Intergovernmental Panel on Climate Change ``Special 
Report on Global Warming of 1.5 degrees Celsius'' makes clear 
that the use of carbon capture technologies will be essential 
under just about any plausible scenario to sufficiently limit 
our global temperature increase.
    Carbon capture, utilization, and storage (CCUS) provides an 
important pathway to meeting our energy needs and reducing our 
carbon emissions. While these technologies are promising, we 
need more research and development to reduce the costs of these 
technologies and to deploy them at the scale needed to meet our 
climate mitigation goals.
    That's why I worked closely with my colleagues on our 
Committee, including our Committee Chairwoman, Representative 
Johnson, Subcommittee Chairman, Mr. Lamb, and Mr. Veasey from 
Fort Worth, to bring forward the Fossil Energy Research and 
Development Act to expand Department of Energy research, 
development, and demonstration programs, including carbon 
capture technologies for power plants, carbon utilization, 
carbon dioxide removal from the atmosphere, leak detection for 
methane, and identifying other novel approaches for light 
hydrocarbons produced during oil and gas shale production.
    As we see consistently on this Committee, on the Science, 
Space, and Technology Committee overall, there is an important 
and valuable, and I would say essential, partnership between 
government, research institutions, and industry that is 
critical to advancing our efforts. And one of the things I 
appreciate most about this Committee is that consistently we 
have panels of witnesses from those various groups informing 
our work.
    So I look forward to hearing from our expert witnesses 
today about how this important technology works and what the 
Federal Government can do to make smarter investments and 
assist in developments that ensure that we remain the global 
energy leader, and that we remain and become the global clean 
energy leader while addressing the challenges before us to 
reduce carbon emissions.
    I want to thank you all for joining us here. I look forward 
to an excellent discussion.
    I would also like to briefly recognize Dr. Renu Khator, 
President of the University of Houston, who is joining us this 
morning, for a few introductory remarks.
    Thank you, Dr. Khator.
    Dr. Khator. Thank you, Madam Chair, Members of the 
Committee. Welcome to the University of Houston. On behalf of 
our Board of Regents, our 74,000 students in the system, 46,000 
students here on this campus, over 300,000 alumni, and a great, 
great, wonderful fleet of researchers here, I would like to 
welcome you all and thank you for choosing to come to the 
University of Houston. Your presence here means a lot.
    I mean, I could talk a lot about the University of Houston, 
but that's not what I'm here for. But I just wanted to say that 
we being in Texas, first of all, take our responsibility toward 
higher education very seriously. We take responsibility for 
providing affordable education and access to a higher 
education, but at the same time also producing the intellectual 
capital that is necessary to solve some of the problems that 
you've just outlined.
    Being in the top five petroleum engineering programs in the 
country, being ranked number one in the entrepreneurship 
program in the country, being ranked number one in transfer of 
technology of our professors into the real world when measured 
in terms of the revenue from IP, we ranked number one there as 
well, all of these things make sure that we have the ability 
that we could do it, we could find the solutions. And as I 
always say, we as an institution being in Houston never raise 
the ivory walls to begin with, so we have no problem in 
knocking them down, a very collaborative institution.
    You will hear a lot from our energy advisory board members. 
They advise us, and they take us to the areas that we didn't 
think possible. But you will also hear from our chief energy 
officer. Anything we can do to advance the agenda as you have 
outlined, we are here as your University, and again being in 
Houston, being in Texas, we take it very, very seriously.
    So thank you for being here. I hope you have a good time 
and enjoy the beautiful campus on this beautiful day.
    Chairwoman Fletcher. Thank you so much, Dr. Khator. I would 
like to second your comment. I think collaboration is something 
that we do very well here in Houston, and I'm pleased that so 
many of our Houston area delegation members are here today for 
the hearing.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Chairwoman Fletcher follows:]

    Thank you, Mr. Weber. I am grateful for your work to bring 
us together for this hearing today on the future of advanced 
research and development on carbon capture, and it is fitting 
that we meet here in Houston.
    Houston is a place of big ideas - it always has been. 
Perhaps more important, it is a place where those big ideas 
become realities. And the subject of today's hearing is a very 
big idea that is becoming a reality.
    Here in Houston, we know energy. When it comes to energy 
innovation, this is its home. Right now, we are experiencing an 
energy renaissance, one that has reduced costs and increased 
investment here and around the world.
    Texas is, as we all know, the largest producer of oil and 
natural gas in the country. Texas also is the leader in 
developing wind energy in the country. We have installed three 
times as much wind power as the next leading state. Texas is 
also the sixth leading state in solar energy capacity.
    Here in Houston, we also know that climate change 
represents a real and growing threat. We are already 
experiencing its effects. And we know that reducing emissions 
is key to addressing climate change.
    The advances in technology that have transformed our energy 
economy have substantially reduced U.S. carbon emissions. 
Replacing coal-fired plants with natural gas plants has 
contributed more to the reduction of domestic carbon emissions 
than any other effort. Developing and utilizing more renewable 
energy sources is another critical part of our overall effort.
    But we need to do more.
    That is why I am so glad that we are here today to talk 
about carbon capture research and development.
    The Intergovernmental Panel on Climate Change ``Special 
Report on Global Warming of 1.5 degrees Celsius'' makes clear 
that the use of carbon capture technologies will be essential 
under just about any plausible scenario to sufficiently limit 
our global temperature increase.
    Carbon capture, utilization, and storage provides an 
important pathway to meeting our energy needs and reducing our 
carbon emissions. While these technologies are promising, we 
need more research and development to reduce the costs of these 
technologies and to deploy them at the scale needed to meet our 
climate mitigation goals.
    That is why I worked closely with my colleagues, including 
our Committee Chairwoman Johnson and Subcommittee Chairman Lamb 
and Mr. Veasey, to bring forward the Fossil Energy Research and 
Development Act to expand Department of Energy (DOE) research, 
development, and demonstration programs including carbon 
capture technologies for power plants, including technologies 
for coal and natural gas; carbon storage, including to develop 
and maintain mapping tools and resources that assess the 
capacity of geologic storage formations in the United States; 
carbon utilization, including to assess and monitor potential 
changes in the life cycle of carbon dioxide and other 
greenhouse gas emissions; advanced energy systems to reduce 
emissions from and improve the efficiency of fossil fuel power 
generation; developing and assessing methods to separate and 
recover rare earth elements from coal and byproduct streams; 
identifying the environmental, health, and safety impacts of 
methane hydrate development; carbon dioxide removal from the 
atmosphere; methane leak detection and mitigation; and 
identifying and evaluating novel uses for light hydrocarbons 
produced during oil and shale gas production.
    As we see consistently on the Science, Space, and 
Technology Committee, there is an important and valuable 
partnership between government, research institutions, and 
industry that is critical to advancing this effort.
    I look forward to hearing from our expert witnesses today 
about how this important technology works and what we in the 
federal government can do to make smarter investments and 
assist in developments that ensure that we remain the global 
energy leader and as the global clean energy leader, while 
addressing the challenges before us to reduce carbon 
emissions.I want to thank all of you here today for joining us 
for this hearing and I look forward to an excellent discussion.

    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and thank you, Chair Fletcher, for holding 
today's hearing in Houston on the Department of Energy's 
efforts to advance carbon capture, utilization, and storage, or 
CCUS, technologies.
    Historically, fossil fuels have served as the primary 
sources of U.S. energy as they provide reliable power at low 
costs. They have also been an important resource to the 
manufacturing sector, which relies on fossil fuel combustion to 
provide high-temperature heat needed for a variety of 
processes, including the production of cement and glass.
    My home state of Texas has played an important role in the 
fossil fuel industry as the leading producer of crude oil and 
natural gas in the U.S. However, as our nation's priorities 
have evolved, we are now focused not only on using energy 
sources that provide low cost, dispatchable energy, but also on 
how the greenhouse gases produced by these sources are 
mitigated and managed.
    That's why we must strengthen our investment in the 
Department of Energy's Office of Fossil Energy, which amongst 
other activities, supports research to reduce emissions that 
result from the production and use of fossil fuels. This 
includes the development of technologies such as carbon 
capture, utilization, and storage, and methane leak detection 
and mitigation. DOE's Fossil Energy Office has already been 
instrumental in advancing CCUS technologies, having heavily 
invested in one of the first commercial scale demonstrations of 
carbon capture and storage in the power sector at Petra Nova. 
Yet, there is much more to be done. To date, there has been 
relatively little research, development, and demonstration 
conducted on CCUS technologies applied to natural gas plants, 
an increasing energy source for our power sector, and 
industrial processes, which produce over 20% of U.S. greenhouse 
gas emissions. Moreover, many experts, including former DOE 
Secretary, Ernest Moniz, have highlighted the need to advance 
direct carbon capture technologies to manage existing, ambient 
carbon pollution.
    For these reasons, I am a proud cosponsor of H.R. 3607, the 
bipartisan Fossil Energy Research and Development Act of 2019, 
which reauthorizes and expands these important research 
activities, and specifically enables DOE to conduct additional 
demonstration projects, like Petra Nova, that are critical for 
propelling the CCUS industry forward.
    I look forward to discussing this legislation further and 
hearing from our distinguished group of witnesses today on the 
research investments we need to make our transition to a clean 
energy future possible. Thank you for being here this morning.
    With that, I yield back.

    Chairwoman Fletcher. If there are no other statements, I 
will go ahead and recognize Mr. Weber to introduce our 
witnesses.
    Mr. Weber. Thank you, ma'am. But before I do, I want to 
echo Dr. Khator's remarks. She's being very gracious and very 
humble. As one of those 300,000 alumni from the University of 
Houston, I want to say for those of you who want to increase 
your Texas or your energy bona fides, they're still taking 
applications for continuing education, so we'll have people 
outside with clipboards to sign you up.
    But seriously, thank you, Dr. Khator. We are just so 
grateful to be here today. Thank you. You bet.
    So, our first witness today is Mr. Greg Kennedy, Senior 
Project Director of Petra Nova Asset Management at NRG Energy, 
and in this capacity he oversees the management of innovative 
carbon capture projects designed to capture and store 1.4 
million tons of CO<INF>2</INF> per year.
    I've actually done some math, Mr. Kennedy, on that. If the 
cost is $600 a ton--that's $840 million. If the cost is $94 a 
ton, as some are trying to get it down to that, that would be 
$131 million a year. So that's about a $700 million difference; 
unbelievable.
    Mr. Kennedy has over 4 decades of project management 
experience overseeing commercial contracts, power origination 
operations, and other global special projects in the energy 
industry. Prior to joining Petra Nova project, he served as the 
Senior Project Director of all southeast assets for GenOn 
Energy.
    Mr. Kennedy holds a bachelor of science and engineering 
degree from Purdue University and received his master of 
business administration from the University of Houston.
    Did I mention they're still taking applications for the 
rest of you all?
    [Laughter.]
    Mr. Weber. Next we're going to Dr. Jeffrey Long. Our next 
witness, Dr. Jeffrey Long, is a Faculty Senior Scientist at the 
Lawrence Berkeley National Laboratory. His research expertise 
and interest includes inorganic and materials chemistry, metal 
organic frameworks, catalysts and conductivity, and molecular 
magnetism.
    Dr. Long has received extensive recognition throughout his 
career for excellence in both teaching and research in the 
energy field, including from Harvard University and UC-
Berkeley.
    Dr. Long, we need to add UH to that list, by the way.
    He has also earned fellowships in the Office of Naval 
Research, the National Science Foundation, the Alfred P. Sloan 
Foundation, and the Bakar Fellows Program at UC-Berkeley. Dr. 
Long holds two Bachelor of Arts degrees from Cornell University 
in chemistry and mathematics and a Ph.D. in chemistry from 
Harvard University.
    Welcome, Dr. Long; and, Mr. Kennedy, you too.
    Dr. Ramanan Krishnamoorti is our next witness that we're 
going to welcome today, and he's the Chief Energy Officer of 
the University of Houston. He oversees UH Energy, a program 
that partners with the energy industry to build those technical 
leadership skills that Dr. Khator was talking about and develop 
those new technologies.
    Since 1996, he has had a storied career in energy research 
at UH, receiving over $16 million for his innovative research 
in the energy field. When I read that I thought, man, you've 
been given a lot of money, but we all know it actually goes 
here to the school and we appreciate your stewardship of that.
    The doctor has been recognized for his outstanding research 
and teaching in the field of prestigious institutions, 
including the University of Houston, the National Science 
Foundation, and the Journal of Polymer Science. Polymers are 
very big in my district, by the way.
    He is also a Fellow of the Neutron Scattering Society and 
the American Physical Society.
    Dr. Krishnamoorti received his bachelor of technology from 
the Indian Institute of Technology and holds a Ph.D. in 
chemical engineering from Princeton University.
    Welcome, Doctor.
    Next we'll go to Mr. Roger Dewing. Our next witness is the 
Director of Technology at the Air Products Technology Center, 
where he has led engineering teams in Europe, China, and in the 
U.S. After graduating from the University of Surrey with a 
bachelor degree in chemical engineering.
    [Laughter.]
    Mr. Weber. He has completed the Graduate Training Program 
in the U.K., taking on assignments in oil refining as well as 
offshore drilling. He then served with British Gas PLC as a 
part of their LNG engineering team before joining the Air 
Products Technology Center in 1996. Man, that's 23 years ago.
    Since beginning his career with Air Products, Mr. Dewing 
has built energy processing technology and knowledge transfer 
systems all around the world. His most recent project will 
support cryogenic process innovation and development in the 
Middle East.
    So, welcome, Mr. Dewing. We're glad you're here.
    Our next witness is Mr. Nigel Jenvey. He is the Global Head 
of Carbon Management at Gaffney, Cline & Associates where he 
helps industry professionals understand the value of carbon 
management, which is one of the reasons we're here today.
    Prior to this role, he has held leadership positions for 
some of the largest energy companies in the world, including as 
head of Carbon Capture, Use and Storage for British Petroleum. 
In addition to his role at Gaffney, Cline & Associates, he is 
now the Coordinating Subcommittee Deputy Chair for the National 
Petroleum Council CCUS study, due to be completed in 2019.
    Mr. Jenvey attended the University of Leeds, where he 
earned a bachelor of engineering degree in mining, like we were 
talking about, mining engineering, and he also holds a master 
of science in petroleum engineering from Imperial College, 
London.
    Welcome, Mr. Jenvey.
    With that, Madam Chair, I will yield back.
    Chairwoman Fletcher. Thank you very much, Mr. Weber.
    As our witnesses should have been informed, you will each 
have 5 minutes for spoken testimony and hopefully summarizing 
the written testimony that you have already prepared. It is 
included in the record for the hearing. And when you've 
completed your 5 minutes each, then we will begin with 
questions from the Members, and each Member will have 5 minutes 
to question the panel. We'll do at least the first round of 
questions that way.
    So, we will start with Dr. Krishnamoorti, if you would like 
to begin. Thank you.

             TESTIMONY OF DR. RAMANAN KRISHNAMOORTI,

          CHIEF ENERGY OFFICER, PROFESSOR OF CHEMICAL

               ENGINEERING, UNIVERSITY OF HOUSTON

    Dr. Krishnamoorti. Thank you so much, Chairwoman Fletcher, 
Ranking Member Weber, and Members of the Committee. Thank you 
for being here at the University of Houston. We call it the 
energy university, and you'll see why.
    Thank you for having me here today to talk about our 
approach to carbon management specifically at the intersection 
of fundamental science, new technology, and policy.
    My name is Ramanan Krishnamoorti, as the Chairwoman 
indicated. I'm the Chief Energy Officer here and Professor of 
Chemical and Biomolecular Engineering.
    Let me sort of set a context for this. Abundant, low-cost 
energy makes the world possible. Affordable and sustainable 
energy will be needed in ever-increasing quantities throughout 
the 21st century as our planet's human population grows by an 
additional 2 to 3 billion. Satisfying this need will be 
challenging. Adding to this challenge is the requirement that 
we must address energy-related climate change risks.
    The University of Houston is uniquely positioned to play a 
leading role in delivering innovative solutions that will be 
required to address both of these global-scale imperatives. UH 
has committed itself to establish itself as the energy 
university, the university that will advance the science, 
technologies, and policies that underpin the energy transition 
while providing affordable energy for our entire planet's 
population.
    At the University of Houston, located in the energy 
capital, we are committed to addressing the issue of carbon. A 
year ago we acted on this imperative that was brought to us by 
a broad group of stakeholders. My colleague Tracy Hester of the 
UH law school and I created the Center for Carbon Management in 
Energy, a center that's currently led by a former DOE official, 
Charles McConnell. It is our thesis that the energy industry is 
the only industry that operates at scale and is positioned to 
substantially reduce the annual addition of 36 gigatons of 
carbon dioxide and cumulative addition of 800 billion tons of 
carbon in the atmosphere. Moreover, we recognize that 
addressing the carbon challenge must be interdisciplinary, 
embracing the systems approach that addresses the present and 
the future.
    Toward this, we have integrated scientific advances with 
technology innovations and, most importantly, connected them to 
regulatory, business, and public policy. In my written 
testimony I provided you a detailed analysis of the current 
challenges and opportunities in carbon management. I've 
emphasized the fact of the impact of UofH in providing 
innovative technological and policy strategies to address 
CO<INF>2</INF> and natural gas emissions. These twin challenges 
require innovative solutions, and they must address the 
immediate challenges and strategic long-term disruptive 
solutions.
    Some prominent examples of these--I will go through three 
of them really quickly, in the interest of time. First, growing 
energy demand in emerging economies such as India presents an 
opportunity to address the twin challenges of access to 
affordable energy and addressing climate risk. A UofH project 
led by my renowned petroleum engineering colleague, Dr. Ganesh 
Thakur, who had an illustrious career at Chevron working in the 
Permian and doing some of the early stage CO<INF>2</INF> 
experiments there, has been working in collaboration with Oil 
India, Ltd. This is one of the publicly held companies in India 
in the state of Assam, and has demonstrated how CO<INF>2</INF> 
captured from nearby petrochemical plants can boost oil 
recovery in a nearby depleted oil field. This is a huge issue 
in a country like India where about 85 to 90 percent of their 
energy is being imported and their depleted oil fields stand as 
a national security and global instability challenge.
    Second, we've been advancing cost-effective--and this is 
important--cost-effective direct air capture through the 
development of modular and intensified carbon capture 
technologies that are coupled with excess renewable energy that 
is unique to the State of Texas, and finding ways to 
appropriately deploy them on a distributed basis. Ongoing 
developments of membrane and electro-membrane technologies, 
along with integration into modular and intensified direct air 
capture units, is underway.
    As a last example, going back to my chemical engineering 
basis here, the inherent stability of CO<INF>2</INF> means that 
many traditional processes for converting CO<INF>2</INF> to 
chemicals are highly energy intensive and hence produce 
additional carbon. In contrast, my colleagues in the Department 
of Chemical Engineering at UofH are using CO<INF>2</INF> both 
as a source of carbon as well as a source of active oxygen that 
can reduce the energy footprint of existing large-scale 
hydrocarbon conversion processes such as methane 
dehydrogenation. Such a process would result in continued 
monetization of natural gas liquids, as well as utilization of 
CO<INF>2</INF>.
    So, in conclusion, Members of the Committee, the University 
of Houston stands ready to address the most challenging 
problems facing our generation, providing affordable and 
reliable access to an ever-growing demand for energy and 
simultaneously addressing the energy-related climate change 
risk.
    I thank you for the opportunity to provide testimony today 
and look forward to answering your questions. Thank you.
    [The prepared statement of Dr. Krishnamoorti follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Fletcher. Thank you, Dr. Krishnamoorti.
    Dr. Long?

                 TESTIMONY OF DR. JEFFREY LONG,

          FACULTY SENIOR SCIENTIST, MATERIALS SCIENCES

        DIVISION, LAWRENCE BERKELEY NATIONAL LABORATORY

    Dr. Long. Chair Fletcher, Ranking Member Weber, 
distinguished Members of the Committee, thank you for inviting 
me. My name is Jeffrey Long, and I'm the Faculty Senior 
Scientist at Berkeley Lab and a Professor at the University of 
California-Berkeley.
    Fossil fuels will continue to supply the majority of global 
energy for many years to come, making it crucial that we invest 
in carbon capture technologies that will stem the buildup of 
greenhouse gases in our atmosphere. Support for basic 
scientific research plays a vital role in this quest. I will 
present a case study that underscores this point.
    I'm a Director of a DOE-funded Energy Frontier Research 
Center, the Center for Gas Separations. Our goal is to create 
new materials that enable the efficient separation of gas 
mixtures, with particular emphasis on separations that reduce 
carbon dioxide emissions from power plants.
    Toward this end, we synthesize new porous solids known as 
metal organic frameworks or, affectionately, MOFs. These 
materials behave as sponges capable of soaking up vast 
quantities of a specific gas molecule such as carbon dioxide. 
MOFs are particularly powerful for such applications owing to 
their controllable structure and their extremely high internal 
surface areas. Indeed, just one gram of a MOF in amounts 
similar to a cube of sugar can have a surface area greater than 
a football field.
    Consequently, if designed properly, a small amount of a MOF 
can remove an enormous amount of carbon dioxide from the 
exhaust gas produced by fossil fuel combustion.
    Working within our center, we serendipitously discovered 
that certain MOFs can capture carbon dioxide through an 
unprecedented switch-like mechanism. What's particularly 
exceptional about these materials is that CO<INF>2</INF> 
capacity is highly sensitive to temperature such that one can 
envision using them in a system where CO<INF>2</INF> can be 
captured and then released in pure form with minimal energy 
input.
    It's important to emphasize that intensive collaboration 
among a team of talented scientists with diverse backgrounds, 
as well as access to unique federally funded facilities such as 
the Advanced Light Source at Berkeley Lab, were essential to 
gaining an understanding of why these materials behave in this 
unexpected manner.
    Our discovery led to a DOE ARPA-E (Advanced Research 
Projects Agency--Energy) project that enabled us to further 
optimize the materials for efficient removal of CO<INF>2</INF> 
from a power plant flue gas. We showed that the capture and 
release of carbon dioxide could be accomplished using much 
smaller temperature changes than required for other 
technologies. This strategy eliminates the need to divert high-
value, high-temperature steam away from electricity production, 
avoiding a large increase in the cost of electricity.
    In the course of these efforts, we also showed that 
variance of the MOFs could be efficient for the removal of 
CO<INF>2</INF> from other gas mixtures, including biogas, 
natural gas, and even directly from air.
    This research led in 2014 to the formation of a startup 
company, Mosaic Materials, in which for full disclosure I have 
a financial interest. Acceptance into Cyclotron Road, an 
incubator program at Berkeley Lab, enabled a demonstration of 
how the new technology might be deployed at scale. This then 
led to success in raising venture capital, and Mosaic Materials 
is now actively pursuing the commercial production of MOFs for 
integration within numerous CO<INF>2</INF> separation 
processes.
    Substantial government support has been raised to 
facilitate these efforts, including from the DOE for carbon 
capture from power plants, from the Navy for efficiently 
scrubbing CO<INF>2</INF> from submarine atmospheres, and from 
NASA (National Aeronautics and Space Administration) for 
CO<INF>2</INF> capture and life support applications.
    The company has further succeeded in forming strategic 
partnerships with other companies with an interest in carbon 
capture, including Exxon Mobil.
    Berkeley Lab is now leading a project funded through the 
National Energy Technology Laboratory in which we're working 
with Mosaic Materials and an engineering company called Svante 
to carry out a pilot demonstration at a coal-fired power plant. 
Here, use of the MOF in a unique rotating bed system can 
achieve quick capture-release cycle times and reduce energy 
consumption. Ultimately, it's envisioned that widespread 
commercial deployment of such technology could result in a 
dramatic reduction of the costs and energy associated with 
carbon capture as it necessarily becomes implemented across the 
globe.
    The discovery of new carbon capture MOFs would not have 
been possible without basic research support at numerous 
stages. If we're to halt global warming, it is essential that 
we continue to champion and even increase such support for 
basic science. Moreover, we need to invest intensively in 
accelerating the most promising new discoveries toward 
technology realization. This is a difficult, slow, and 
expensive process but one that is of vital importance to our 
future.
    Again, thank you for inviting me. I look forward to 
answering any questions you may have.
    [The prepared statement of Dr. Long follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairwoman Fletcher. Thank you, Dr. Long.
    Mr. Kennedy?

                 TESTIMONY OF MR. GREG KENNEDY,

            SENIOR PROJECT DIRECTOR, NRG ENERGY, AND

        DIRECTOR OF ASSET MANAGEMENT, PETRA NOVA PROJECT

    Mr. Kennedy. Thank you. Madam Chairwoman, Ranking Member, 
and Committee Members, I am honored to be here today testifying 
on carbon capture and utilization and sharing NRG's perspective 
on the role that carbon capture can play in reducing greenhouse 
gas emissions.
    My name is Greg Kennedy, and I'm Senior Project Director 
for NRG Energy, a large, publicly traded, competitive power 
company, and I serve as President of Petra Nova. At the outset 
I'd like to provide some context for what it means to be 
competitive in the electricity sector. It means that NRG is not 
a utility with rates determined by regulators. We do not have 
captive ratepayers from whom we can recover costs or a 
guaranteed rate of return. Our shareholders bear the risk tied 
to the plants that we build and operate and investments that we 
make to support those plants, including our investment in the 
Petra Nova project.
    This morning I want to focus on carbon capture utilization 
and storage and NRG's experience at Petra Nova, the only 
commercial-scale CCUS project in the United States. Petra Nova 
is the largest post-combustion carbon capture project in the 
world, and it was completed on time and on budget.
    Petra Nova captures CO<INF>2</INF> from NRG's WA Parish 
power plant located southwest of Houston, Texas. We use amine-
based post-combustion technology to capture 90 percent of the 
CO<INF>2</INF> from a 240-megawatt-equivalent slipstream of 
flue gas from one of the coal units at the plant. When 
operating at 100 percent, over 5,200 short tons of CO<INF>2</INF> 
are captured each day. The captured CO<INF>2</INF> is then 
dried, cooled, compressed, and transported 81 miles via 
pipeline to the West Ranch oil field, where it is injected to 
enhance oil recovery and ultimately sequestered.
    To help finance and achieve the technological goals of the 
project, the NRG partnered with JX Nippon, a global oil and gas 
company, in a 50/50 joint venture. Additionally, Petra Nova 
formed a joint venture with Hilcorp Energy, a privately held 
oil and gas company, to use enhanced oil recovery to increase 
oil production at the West Ranch oil field. We are parties to a 
third partnership as well, and one that is very important to 
this Committee. Petra Nova would not exist without support from 
the U.S. Department of Energy, which provided a $190 million 
cost-shared grant to defray the project's approximately $1 
billion price tag.
    Petra Nova became operational on December 29, 2016, and as 
of the end of October the plant has delivered approximately 3.6 
million tons of captured CO<INF>2</INF>, equivalent to pulling 
almost 700,000 cars off the road for a year. From an 
engineering perspective, the project has been a success, and 
the technology works.
    As with any first-of-a-kind effort, we have learned several 
lessons. We have gained a valuable and detailed understanding 
of the challenges presented by scaling up carbon capture to 
commercial scale: The impact of location-specific 
considerations such as ambient temperature, any capital and 
operating costs, along with options to reduce or manage both.
    Working with our technology provider, Mitsubishi Heavy 
Industries, we have encountered and solved a variety of 
challenges. What we have learned has, of course, been shared 
with the Department of Energy and provides valuable insights 
for the next generation of CCUS projects. We encourage the 
Committee to position the Federal Government as a more active 
partner in making projects work from both an engineering and 
business perspective. Strengthening these public-private 
partnerships is critical, because if a commercial-scale 
demonstration is not also financially viable, it will be the 
first and last.
    One way to strengthen these partnerships would be ongoing 
collaboration between the DOE's R&D (research and development) 
efforts, technology providers, and potential project investors 
to work through technology challenges. Petra Nova was a 10X 
scale-up of a post-combustion demonstration project in Alabama. 
Future projects will likely be a further scale-up in size, and 
whether this results in larger equipment or multiple trains of 
similar-sized equipment, this will likely create new challenges 
to keep costs down.
    I would also encourage this Committee to collaborate with 
the tax-writing committee to ensure that the 45Q tax credit is 
implemented in a way that provides flexibility around, 
eligibility for, and receipt of the credit. These initiatives 
will help to continue advancing commercial-scale CCUS projects 
by facilitating technology improvements to drive capital and 
operating costs lower, the ability to sell CO<INF>2</INF> at a 
competitive price, and access to tax credits can improve 
project economics.
    We encourage the Committee to remain engaged both on the 
challenges to reduce carbon emissions and to deploy the 
technologies needed to solve that challenge. At NRG, we are 
committed to be part of that solution.
    I thank you for the opportunity to appear this morning, and 
I'm happy to answer any questions that the Committee may have. 
Thank you.
    [The prepared statement of Mr. Kennedy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Chairwoman Fletcher. Thank you, Mr. Kennedy.
    Mr. Dewing?


                 TESTIMONY OF MR. ROGER DEWING,

                  DIRECTOR OF TECHNOLOGY CCUS,

                AIR PRODUCTS AND CHEMICALS, INC.

    Mr. Dewing. Madam Chairwoman, Ranking Member, and Members 
of the Committee, I appreciate the opportunity to testify 
before you today. First, I want to commend the leadership of 
this Committee for exploring the promise of carbon capture 
technology and its importance to global energy.
    I'd like to start by outlining how Air Products believes 
carbon capture and storage, or CCS, projects may develop over 
the next few years. I'll highlight how important these projects 
could be in reducing carbon dioxide emissions to the atmosphere 
whilst maintaining global energy supplies.
    Many of the current proposed CCS projects revolve around 
the production and utilization of hydrogen. Hydrogen, we 
believe, may be an enabler for many CCS projects. If current 
hydrocarbon fuels, from natural gas to coal, are converted to 
hydrogen and carbon dioxide, or CO<INF>2</INF>, and if the 
carbon dioxide is captured and stored, then the produced 
hydrogen can be considered to have been produced emission-free. 
This hydrogen is often referred to as ``blue hydrogen.''
    Using hydrogen to distribute and store energy has some 
significant benefits. It can be used as the fuel for power 
generation in turbines. It can be used for transportation in 
fuel cells. It can be distributed to industry clusters to de-
carbonize energy-intensive industries. Excess hydrogen can also 
be stored for use when demand is high. It can therefore be 
complementary to green energy projects such as solar or wind, 
providing a backup supply of energy when needed.
    However, CCS projects will only become a reality if you can 
ensure two fundamental questions can be answered: Where will 
the CO<INF>2</INF> go? And who will pay for it to be captured 
and stored? I will explore the answers to these questions again 
in a moment.
    Within Air Products I'm currently setting up a group to 
further develop our CCS technology. We're recruiting scientists 
and engineers in the U.S. into our head office in Pennsylvania 
and elsewhere in the world. This is to meet the need for 
greater sustainability in global industrial projects.
    Air Products' initial interest in CCS started in 2005 when 
these types of projects were being led by large power 
generation companies. However, global interest diminished with 
the recession of 2008. But that interest is returning with a 
slightly different focus. Current proposals seem to be for a 
large group of projects feeding a single CO<INF>2</INF> storage 
solution. The U.S., Canada, EU, and China are leading that 
renewed interest.
    The U.S. is the market leader for CCS projects and 
associated technology. Currently, over half the operating CCS 
projects around the world are in the U.S. There are already 
hundreds of miles of super critical CO<INF>2</INF> pipelines 
moving large quantities of CO<INF>2</INF> for enhanced oil 
recovery. And also, the U.S. has the Federal 45Q tax credits 
providing financial incentives to capture that CO<INF>2</INF>. 
I would argue that this credit may not be enough on its own, 
but it is ahead of many other countries who have nothing in 
place at the moment.
    Among the current CCS projects operating is Air Products' 
Port Arthur facility here in Texas. It originally produced 
hydrogen and steam for the refinery locally, but since a 
retrofit in 2013 it also captures 1 million metric tons of 
CO<INF>2</INF> a year, and it's been operating for 6 years. The 
project was partially funded by the DOE, which allowed us to 
develop our CO<INF>2</INF> Vacuum Swing Adsorption technology 
that can flexibly capture CO<INF>2</INF> from processed gases. 
Air Products also installed equipment for the compression and 
drying of that CO<INF>2</INF> so that it could be delivered to 
a local Denbury pipeline for EOR (enhanced oil recovery). We 
were also able to reconfigure the facility such that it 
provides the same industrial gas products to our customers.
    The capture project is still operating and is a success 
because it answers those two fundamental questions I posed 
earlier: Where the CO<INF>2</INF> will go? And who will pay for 
it to be captured and stored? First, the Denbury CO<INF>2</INF> 
pipeline, used to supply CO<INF>2</INF> for EOR, was only 13 
miles away, so there was a home for the CO<INF>2</INF>. Second, 
the DOE funded the project, the 45Q tax credits, and the fact 
that CO<INF>2</INF> has a value for EOR made the project 
financially sensible.
    Looking to the future, Air Products is actively seeking 
more projects like Port Arthur. That experience gives us a 
proven reference for designing and operating CCS projects. It 
is likely that many of the next projects may be of similar 
scope. Retrofits of existing hydrogen facilities lend 
themselves to capturing significant CO<INF>2</INF> at modest 
capital cost.
    Air Products' recent acquisition of Shell and GE 
gasification technologies should offer another opportunity to 
develop CCS projects. Gasification technology converts a broad 
range of hydrocarbon feeds into hydrogen-rich synthesis gas. It 
is then possible to capture the CO<INF>2</INF> from this gas 
for storage. This means fuels such as coal can be used for 
energy supplies with theoretically no CO<INF>2</INF> emissions 
to the atmosphere.
    Some final thoughts. The use of fossil fuels, as we said, 
will continue for many years to come, and CCS will allow this 
to continue while still meeting CO<INF>2</INF> emission 
targets. CCS means that heavier carbon-rich fuels may still be 
used to provide energy without the associated heavy burden of 
atmospheric CO<INF>2</INF>. CCS projects are in operation 
today, so the technology to capture and store CO<INF>2</INF> 
already exists. There are no technology barriers to the 
projects, but further research will be essential to reduce 
costs and improve efficiency. This will make more projects 
feasible when the two fundamental questions are asked and 
answered.
    Thank you for the opportunity to present Air Products' 
perspective on CCS issues, and I hope that with the continued 
support of the DOE that many more CCS projects like our Port 
Arthur facility will become reality. Thank you.
    [The prepared statement of Mr. Dewing follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Chairwoman Fletcher. Thank you, Mr. Dewing.
    Mr. Jenvey?


                 TESTIMONY OF MR. NIGEL JENVEY,

               GLOBAL HEAD OF CARBON MANAGEMENT,

                  GAFFNEY, CLINE & ASSOCIATES

    Mr. Jenvey. Good morning, Chair Fletcher, Ranking Member 
Weber, distinguished Members of the Committee. I sincerely 
thank you for the opportunity to talk to you today and provide 
some perspectives that I have on capture and storage. Gaffney, 
Cline & Associates provides independent and trusted technical, 
commercial, and strategic advice to the oil and gas industry. A 
key pillar of our carbon management practice includes the 
assessment of the range of carbon solutions that are available 
to avoid, replace, reduce, offset, or sequester greenhouse gas 
emissions to assure continued compliance and competitiveness in 
a constantly evolving global energy market.
    While there is no silver bullet to carbon management, per 
se, carbon capture, use, and storage is widely considered a 
vital carbon solution or clean energy technology that is 
available today. But according to the International Energy 
Agency, it is not on track for meeting the world's sustainable 
development goals. My objective today is to convey my 
experience on how continued U.S. technology and capability 
leadership will expand deployment domestically and 
internationally.
    Amine-absorption CO<INF>2</INF> capture technology is 
proven today for use at commercial scale, as you've heard from 
Mr. Kennedy from Petra Nova. The original patent for this, a 
process for separating acidic gases, was filed in 1930. The 
technology is capital intensive due to its large scale and 
complexity, along with the significant energy and maintenance 
costs for operation. While cost and performance improvements 
have been achieved over time, this is now reaching fundamental 
limitations in the thermodynamics of the regeneration energy 
needed for the amines. Cost reductions are therefore stalling.
    Other newer technology types, some of which you've heard 
about here today, include cryogenic, absorption, membranes, and 
process systems that have been researched, developed, and in 
some cases demonstrated at commercial scale over the last 
decade.
    Typically, these technologies require less capital and have 
lower energy demands to operate. While some hold promise, 
deployment on commercial power plants or large-scale industrial 
facilities, of course, still has a significant amount of risk 
for investors due to the total as-spent cost and long-term 
operational performance uncertainties.
    A novel approach has therefore materialized--we've heard it 
from colleagues here today--where some of these newer 
technologies are being demonstrated at much smaller scales. 
Sometimes they are being combined into hybrid systems or 
integrated with renewable power and heat sources. Innovation at 
this small modular scale carries less risk, reducing cycle 
times to success or failure. While they are currently less 
mature, these innovations could result in potential 
breakthroughs in cost that with further support and time 
potentially move back into power and large-scale industry 
applications.
    We now understand that CCUS is a versatile carbon solution 
in that it can greatly reduce CO<INF>2</INF> emissions from 
existing energy, industrial infrastructure, and the atmosphere. 
However, since there is no panacea for CO<INF>2</INF> capture 
technology to address all CO<INF>2</INF> emissions, a 
diversified technology program is therefore needed.
    I have personally worked in CCUS since 2004 on technology 
and projects across the world and have found unequivocally the 
U.S. to be the world leader in CCUS research, development, 
demonstration, and deployment. This is evidenced by consistent 
congressional support, over 20 years for the Department of 
Energy to lead and support public-private collaboration on 
science and technology, an established regulatory framework, 
over 5,000 miles of installed CO<INF>2</INF> pipelines, over 40 
years of CO<INF>2</INF> enhanced oil recovery experience, over 
80 percent of the world's installed CCUS capacity, and world-
leading policy support with the 45Q tax credit.
    However, the rest of the world is catching up, with 12 of 
the next 15 projects in advanced development located outside of 
the U.S., according to the Global CCS Institute.
    Over the last year I have therefore had the honor and 
pleasure to serve as Deputy Chair to the CCUS Study 
Coordinating Subcommittee of the National Petroleum Council. 
This study was undertaken at the request of Secretary Perry and 
is due to report out on December 12, 2019. While, of course, I 
cannot comment on the specifics of this pending report, we have 
developed a roadmap for deployment at scale that will ensure 
continued U.S. leadership. A differential feature of the study 
has been to assess the costs of capture, transport, and storage 
to the largest 80 percent of all U.S. stationary sources. This, 
therefore, underpins our identification of the level of value 
necessary to enable deployment, builds the case for ongoing 
RD&D (research, development, and demonstration) across the 
entire CCUS value chain, and enables assessment of the economic 
benefits: jobs, economic competitiveness, and energy security.
    The resulting recommendations have been laid out in three 
phases to achieve deployment at scale and are categorized into 
financial incentives, supportive legal and regulatory 
frameworks, technology and capability, and stakeholder 
engagement themes. I offer to revert to this Committee to 
provide further details of this study at a later date, should 
you be interested.
    In conclusion, the U.S. is well positioned to lead the 
world with its experience, technology, and capability. 
Continued public-private commitments to RD&D investment are 
essential.
    Thank you once again for your time today, and I would be 
happy to answer any of your questions.
    [The prepared statement of Mr. Jenvey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairwoman Fletcher. Thank you very much, Mr. Jenvey.
    At this point we will begin our first round of questions 
for our witnesses, and I will start by recognizing myself for 5 
minutes. I do want to follow up on your offer and your 
comments, Mr. Jenvey, about the path forward, and your 
recommendations. I think this Committee would very much 
appreciate getting a copy of the recommendations as soon as 
they are available.
    That kind of gave us a preview of the question that I'd 
like to put to everyone who is here about what it is that we 
can do to assist in this effort, because we sit before you as 
Members of Congress. This is the Science, Space, and Technology 
Committee, and this is the Energy Subcommittee. This is an 
issue that we are very focused on, and so I have a ton of 
questions. Five minutes will not cover all of them. We may get 
to do another round and, of course, would love to continue the 
conversation as we go.
    But one particular question in your written testimony, Mr. 
Jenvey, was about the potential for use of these carbon capture 
technologies to reduce emissions in other industries such as 
cement or steel and petrochemicals. So, can you talk a little 
bit about how carbon capture technologies differ, how the 
designs differ with other applications, as opposed to the ones 
that have been designed for coal-fired power plants or natural 
gas plants?
    Mr. Jenvey. Thank you. So, there are definitely synergies 
between the types of technologies, the fundamental building 
blocks that those technologies use, whether it's absorption, 
adsorption processing, or whether it's pre-combustion or post-
combustion. So there is some ability to transfer from one 
industrial setting to another, but each is different. I think, 
as Mr. Kennedy pointed out earlier on, of course, they have 
environmental, atmospheric, different changes where they're 
actually operated. The stream compositions are different for 
the amount of CO<INF>2</INF> that's contained within them. 
Usually in the industrial processes there are process 
emissions, which tend to have higher concentration of 
CO<INF>2</INF>, as opposed to combustion emissions from power 
plants or furnaces and heaters, which is a lower concentration 
of CO<INF>2</INF>. But then again, those streams also have 
other gases, other contaminants in them that also have to be 
dealt with.
    So there's a lot of synergy between the different 
technologies. But as I said, there's really no panacea that's 
safe for all different types of applications. Generally, cost 
of capture is related to CO<INF>2</INF> concentration in the 
stream, and therefore that really is a focus in order to spot 
the early opportunities, the low-hanging fruit, to be able to 
target those and find the right technology that can be applied.
    Chairwoman Fletcher. And as a quick follow up, are you 
aware of any planned or existing projects that work on carbon 
capture on some of these other processes right now?
    Mr. Jenvey. There's one that's in the public domain that's 
going on over in Europe. It's one of those advanced projects in 
development that's capturing from a biogas site in Norway, and 
also a cement plant in Norway.
    Chairwoman Fletcher. Thank you very much.
    Like I said, 5 minutes goes very quickly, so I have limited 
time.
    But, Dr. Krishnamoorti, I also wanted to touch on your 
testimony. You mentioned that carbon dioxide is inherently 
stable, meaning that it requires a lot of energy to convert 
carbon dioxide to other chemicals for potential carbon 
utilization applications. Some of my colleagues in Congress, 
some who serve on this Committee with us, have expressed a 
similar skepticism about carbon utilization for this very 
reason.
    So given that processing carbon dioxide is such an energy-
intensive process, is it reasonable to expect that we will have 
a booming market for products that utilize carbon in the 
future? What would those products look like? Can you talk about 
that?
    Dr. Krishnamoorti. Sure, and this is the power of 
chemistry. Even though it is such a stable molecule, there are 
clever ways to not necessarily take it back to carbon and 
oxygen but take it to transitionary states where you can get it 
to happen at a much lower energy price and therefore be able to 
utilize it. This is some of the work that I was talking about 
where my colleagues are working with taking carbon dioxide, 
finding ways to apply catalysis to it, getting it to now be a 
co-reactant with methane and natural gas liquids to convert it 
into useful fuels; for instance, methanol. Co-plasma is a 
technology that we have been starting to deploy to take carbon 
dioxide with methane and with other lighter hydrocarbons to 
convert into methanol and other higher hydrocarbons. These take 
much less energy.
    Clever chemistry works beautifully. This is what we've done 
for 150 years.
    Chairwoman Fletcher. Terrific.
    With the few seconds I have remaining, I think we're all 
familiar with the use for enhanced oil recovery. Are there 
other, besides what you've touched on, other existing or 
potential uses for carbon dioxide that you see as part of this 
process?
    Dr. Krishnamoorti. Some of the ones that hit the headlines 
are things like we can make plastics. We can use it in cement 
production. But those, when you look at the scale, are very 
small.
    Perhaps the one place which is really attractive is taking 
carbon dioxide and making fuel, making gasoline. That is a 
target that is ripe for the picking. Catalysis is available. 
It's a matter of reducing cost and getting it to be comparable 
to extracting from the ground and getting the natural gasoline.
    Chairwoman Fletcher. Thank you very much, Dr. 
Krishnamoorti.
    My time has expired. That's what the little lights tell us. 
So we will move on, and I will now recognize Mr. Weber for 5 
minutes.
    Mr. Weber. This is for all witnesses, so we'll start here 
and go down.
    I'm very supportive of advanced renewable energy 
technologies and clean energy technologies, like nuclear 
energy, for example. It is clear to me that fossil fuels will 
be an important part of the U.S. energy portfolio for years to 
come.
    Since many of you have touched on this issue in your 
prepared testimonies and remarks, I'm interested to know what 
each of you say to those who would believe that we should not 
invest in clean energy R&D for the fossil fuel sector and 
instead funnel all of our research and development money into 
renewable energy technologies. What do you think about that?
    Dr. Krishnamoorti. We've given it a lot of thought. Being 
in Houston, being a partner with many of the industries here, 
we believe that there are no silver-bullet solutions. It's an 
all-of-the-above strategy that has to operate. We believe that 
the fossil industry, it is not the hydrocarbon that is the 
problem. It is what comes out of that tailpipe is perhaps the 
problem.
    And even that we dispute. We think that there are critical 
ways in which CO<INF>2</INF> can be utilized, and therefore 
should not be considered even a waste. I think there's a really 
interesting way to perhaps find a way to use that CO<INF>2</INF> 
and be economically advantaged.
    So the short answer, absolutely not that we should be 
picking the technology solutions. I think we identify the 
challenge, which is we need to be protecting the environment.
    Mr. Weber. Thank you. So we'll coin a new phrase today 
based on that. The old phrase, ``When life gives you lemons, 
make lemonade''----
    Dr. Krishnamoorti. Make margaritas.
    [Laughter.]
    Mr. Weber. Make margaritas. It's 5 o'clock somewhere.
    But the new phrase is, ``When life gives you 
CO<INF>2</INF>, make energy.''
    Dr. Long?
    Dr. Long. Yes, I agree with my colleague. I'd also add that 
the task of converting all of this energy infrastructure to 
renewable sources, there's no way we can do it without taking 
decades, particularly in developing countries where they will 
also use the cheapest source of fuel.
    In addition, even if we could convert immediately to 
renewable sources of energy, we have the problem of the current 
CO<INF>2</INF> levels in our atmosphere, and a lot of 
projections of not increasing temperatures on our planet 
involve CO<INF>2</INF> capture from air. So we need to pursue 
this technology for many different uses.
    Mr. Weber. Thank you.
    Mr. Kennedy?
    Mr. Kennedy. Yes, just echoing the same comments that were 
made. Renewables are very important. But, as you mentioned, 
fossil energy is not going to go away anytime soon. So to the 
extent that we can continue the R&D efforts to negate some of 
the impact of those fossil fuels, I think we're all better off 
by doing that.
    Mr. Weber. Well, they're still developing horizontal 
fracking and drilling and becoming better and better and better 
at that, and I would postulate that also they are getting at 
capturing all the things that come out of that process.
    Mr. Dewing?
    Mr. Dewing. I think we've proven that we can store CO<INF>2</INF> 
for the long term, thousands of years, underground. That's 
where the fossil fuels came from. We can return it there safely 
and take the benefit of the fossil fuel energy for the 
foreseeable future, and I think we need to, to maintain the 
world's energy requirements.
    Mr. Weber. Mr. Jenvey?
    Mr. Jenvey. Definitely it's not a race to renewables. It's 
really a race to lower emissions in energy.
    Mr. Weber. Good point.
    Mr. Jenvey. And, of course, fossil fuels and thermal power 
generation is a great partner to renewables within the grid, 
providing flexible backup to intermittency that naturally 
occurs within those renewable energy forms. So really it's 
about a partnership and an all-of-the-above energy solution. Of 
course, cost is a major consideration for consumers between the 
choices that there are within the energy supply.
    Mr. Weber. Thank you.
    I've just got a couple of minutes left, so I'm going to go 
back to you, Mr. Dewing. In your prepared testimony, I like how 
you highlighted these questions: Where will the CO<INF>2</INF> 
go? You just mentioned underground for thousands of years. And 
who will pay for it? Now you and Mr. Kennedy have both explored 
various answers to these questions this morning. But since we 
are on the Science Committee, we want to hear more about the 
science of this process.
    So first, from an industry perspective, I'd like to hear 
more from both of you about the technical challenges associated 
with the placement of captured CO<INF>2</INF>. In your opinion, 
what are the major barriers associated with this end, of 
getting the CCUS pathway that can be addressed with our help 
through basic research and development?
    Mr. Kennedy, we'll start with you.
    Mr. Kennedy. Yes, sure, and thank you. Let me just give you 
a few examples of the technical challenges that I think would 
be helpful through additional R&D: The behavior and impact of 
amines in large-scale carbon capture projects and equipment, 
including the degradation rates and the effect on carbon 
capture systems; the effects of higher operating temperatures 
on critical equipment. As was mentioned, location matters. 
Given the ambient conditions here in the Houston area, cooling 
capacity is a very, very important part of the process. We use 
some of the largest heat exchangers that manufacturers make. So 
it's very important to continue the R&D efforts to improve upon 
that.
    Optimizing vessel sizes. We have some very large vessels 
that were done in our first-of-a-kind facility. Additional R&D 
to drive capital out to see if you can right-size or properly 
size those vessels.
    Then outside of our technology, just expanding 
technologies: Capture of waste CO<INF>2</INF> from other large 
sources, including natural gas, direct air; and then also 
furthering our knowledge in EOR, looking at unconditional 
reservoirs and different geologies and how CO<INF>2</INF> 
interacts in those.
    Mr. Weber. [Inaudible.]
    Mr. Dewing. I think the key issue we face is the efficiency 
of removal. If you're using lots more energy to remove that 
CO<INF>2</INF>, then it's running away with you. So we have 
processes that work where we've got an absorption process that 
we think is a well beater, and we're looking forward to do 
that. We want to improve that. We have heat exchange issues as 
well. Some of the temperatures, we're experiencing some of the 
approaches on those heat exchanges need a lot of development, 
too. So we'd like help with investment to continue to improve 
our efficiency, improve the processes.
    Mr. Weber. Thank you, Madam Chair. I yield back.
    Chairwoman Fletcher. Thank you, Mr. Weber.
    I'll now recognize Mr. Cloud for 5 minutes.
    Mr. Cloud. Thank you. This is an exciting topic. I'm really 
happy that you all are here to talk about these important 
issues. The world's demand for energy is growing. I have always 
believed that the solution to the challenges we face is 
advancements in technology rather than us all retreating from 
the industrial age. So it's exciting to see the developments 
that are happening.
    Mr. Kennedy, I'm really amazed, first of all, to hear that 
a project was done on time and on budget. So if you could, 
first of all, give us a manual on that, that would be 
applicable across a number of spheres. But in all seriousness, 
there was a project I think in Kemper County, Mississippi where 
the government invested almost $400 million that ended up being 
wasted. So what was the difference in the success that happened 
at Petra Nova? How can we be effective in investing the 
taxpayer dollars to get the desired results?
    Mr. Kennedy. Yes, sure, and they (Kemper) had a totally 
different technology. So, what was successful for us? Number 
one, like I mentioned, was a scale-up of a demonstration 
project, so there was some history that the technology actually 
works. Ninety percent of our engineering was done prior to 
starting construction, so there were not a lot of scope 
changes. We had phenomenal partners. We basically formed a 
consortium with our technology provider and our contractor and 
did a single EPC contract. So they worked together on meeting 
the needs that we had in our turnkey project. A lot of those I 
think were very helpful to get us to where we got to.
    Mr. Cloud. And, Mr. Krishnamoorti--I hope I said that 
right--I really appreciated a lot of how you phrased this in 
the need to have research that gets this to a market-based 
approach. I think as far as moving us into the future, that's 
the best approach, as opposed to a heavy hand of regulatory 
environment. Of course, we'll need some light touch there 
probably, but in the sense of what technologies, what research 
areas need to be done? What are the areas that we need to focus 
on that will get this to market viability? And maybe all of you 
can lean into this a bit.
    Dr. Krishnamoorti. Sure. We believe that a large part of 
this is on the capture side, and we want to look at point 
source capture as being the first and foremost place where we 
can do this work. You heard from Petra Nova; they have done 
some very interesting things.
    The other story in the Houston area, which has got another 
very large natural gas-based power plant that has developed new 
technology that is ready for the commercial world, is something 
that you hear about. Net Power, they have done some pretty 
amazing work. That's the kind of technology that needs to be 
scaled up.
    Mr. Weber. Repeat their name again?
    Dr. Krishnamoorti. Net Power. They are in Pasadena, Texas, 
and they've demonstrated at 50 megawatts what they can do to 
capture CO<INF>2</INF>. They need to scale up. We need to find 
ways to get that technology ready for the marketplace.
    Likewise, I believe distributed sources are something that 
we've got to look at. We've got abundant renewable electricity 
available that is not being utilized. How do we get that to be 
utilized and produce CO<INF>2</INF> in places where it can be 
used? Right now, there is more demand for CO<INF>2</INF> in the 
State of Texas than available piped CO<INF>2</INF>. The big 
challenge is pipeline, and that's something that can be 
addressed by a light touch of regulation, change CO<INF>2</INF> 
from being a waste product to being a critical material that 
can create economic value.
    Mr. Cloud. That was going to be my next question, if the 
infrastructure existed or what needs there were in helping us 
to make it to that.
    Dr. Krishnamoorti. Yes. Going to common carrier pipeline 
will relieve enormous challenges today in the CO<INF>2</INF> 
market, and that will mean you'll get to see a lot more of 
these planned activities being done at scale. And the more we 
can do things at scale, we can make this cheaper.
    Yes, we're doing a lot of things in the science and 
engineering world that will be disruptive, but that's 5, 10, 15 
years out. We need things to happen now to make it viable for 
the future. Thank you.
    Mr. Cloud. Now, one of the great successes I see here is 
that in this case the investment went to technologies that went 
to practical applications. Do you all have any suggestions for 
that? Because a lot of times we'll invest in research, we'll 
have these breakthroughs, they make it to the journals, but 
they don't make it to practical application. Do you all have 
any suggestions for how we can be more effective nationwide in 
getting the research dollars that produce the breakthroughs 
that actually make it to the sphere of application?
    Dr. Long. Yes, you're absolutely right. There's a huge 
valley of death between fundamental discovery of some new 
possible technology and demonstration. One thing that does try 
to address that is ARPA-E. I think it's something we need a lot 
more of. There's a disconnect between the scientist doing the 
fundamental research and engineers who know how to build a 
practical device. We need to bridge that gap with funding, get 
those scientists and engineers together.
    Chairwoman Fletcher. Thank you very much, Mr. Cloud. I 
appreciate that.
    We were just conferring that this Committee has passed the 
reauthorization of the ARPA-e bill through our Committee, and 
we're hoping that it will come to the floor very soon. So I was 
just checking on the timing on that, so thank you very much.
    I will now recognize Dr. Babin for 5 minutes.
    Mr. Babin. Thank you, Madam Chair. Thank you, University of 
Houston. And thank you, expert witnesses, for being here today.
    I'm privileged to have this opportunity today to bring this 
hearing down, help bring this hearing down to our great State, 
where we get a chance to show off southeast Texas and see 
firsthand the innovative new technologies that are 
revolutionizing the way that we produce energy. Texas has 
always played a huge role in America's energy economy, and I 
believe that Houston is the epicenter of that.
    I represent the 36th District. We have more petrochemical 
refining facilities than anywhere else in the entire country. 
So I think that there's not a better place to roll this new 
technology out. We also have some of the busiest ports in the 
world.
    Mankind benefits so greatly when science can solve a lot of 
our problems. For instance, turning an over-abundance of 
production of CO<INF>2</INF>, and turn that into an advantage 
to help produce more energy and have a cleaner environment.
    So my first question is, how do we roll out these new 
technologies here in Houston to improve the efficiency and 
quality of our energy production? Specifically, what are the 
technological barriers to commercialization, and how can the 
Department of Energy effectively partner up with industry? As 
briefly as possible. And, Mr. Kennedy, I'd like to ask that of 
you first, please, sir.
    Mr. Kennedy. Yes, sure. As I mentioned in my testimony, the 
private-public partnerships are very important. The technology 
is very, very expensive. So I think the effort today is to look 
at the second- and third-generation of carbon capture 
facilities without technology, look for ways to make those more 
cost-effective for people to invest in them.
    Mr. Babin. Right. OK, thank you.
    And then Dr. Long?
    Dr. Long. Yes. Again, we have ARPA-e to try to bridge this 
gap. It's not enough. As someone working in fundamental science 
making discoveries, it's really sad to see when no one 
recognizes or takes up the challenge of how do we build 
something out of that, something practical. That's not 
something my lab does. We need partners. DOE should really 
encourage that partnership of taking a quaint new discovery 
just to the next step of a bench-scale engineered test. This 
could be a kilogram of materials. But that step is missing. We 
need more funding of that.
    Mr. Babin. OK. Thank you very much.
    Now I'd like to ask the next question. Carbon capture 
technologies help us to more efficiently produce energy and 
helps us to create cleaner energy, as we mentioned, but 
addressing climate change is not a one-country problem. We see 
time and time again when other countries, like China and India 
for example, disregard the effects of their pollution. This is 
a global issue, there's no question about it. Do you see 
collaboration opportunities with countries like China and India 
where we can profit off of our innovative technology while they 
become cleaner countries at the same time? What collaboration 
opportunities do you see?
    I'd like to start over with Dr. Krishnamoorti.
    Dr. Krishnamoorti. Well, in my testimony I talked about a 
collaboration with Oil India specifically on the issue of 
capturing CO<INF>2</INF> and putting it for EOR. There are 
other opportunities. For instance, we've developed some coal 
gasification technology in this country that is remarkable. It 
will probably never see the light of day here in this country, 
but given the need for energy, given the need for doing it 
environmentally conscious, how do we find a way to partner with 
countries like China and India to really deliver that coal 
gasification technology?
    Mr. Babin. Absolutely.
    Mr. Dewing, if I could ask that of you?
    Mr. Dewing. We already have a project where we partner with 
a Chinese company to gasify coal to make a synthesis gas. So 
we're already working together. We have gasification 
technology. We have CO<INF>2</INF> capture technology. China is 
showing an interest in CO<INF>2</INF> capture and 
sequestration. So a lot of that work is already in progress, 
and Air Products is actively working with Chinese partners.
    We have a project for dry reforming where we reform the 
CO<INF>2</INF>. So that's with the research organization 
Shanghai, and we're collaborating with them.
    So I think there are lots of opportunities certainly in 
China, and we're exploring India as well. So it's happening 
already.
    Mr. Babin. And then Mr. Jenvey, if you could add a little 
bit to that as well?
    Mr. Jenvey. Definitely. The United States, as I said in my 
testimony, is a global leader in CCUS, so indeed there's a 
marketplace internationally there for that leadership, both in 
technology and capability, that's being built here. There are 
consortium collaborations internationally on this already. The 
Clean Energy Ministerial has now started to include CCUS within 
its work and provide protocols and methodologies to include 
CCUS within, of course, some of those international agreements 
to reduce greenhouse gas emissions. So it's good to see those.
    Mr. Babin. Yes, sir. Thank you.
    I see my time has expired. It's amazing how fast 5 minutes 
goes by. But thank you, and I yield back.
    Chairwoman Fletcher. Thank you, Dr. Babin.
    We are pleased to invite some of our Houston colleagues who 
are able to join us this morning. I'm very pleased to be able 
to recognize Mr. Crenshaw, who is joining our Committee this 
morning, for 5 minutes.
    Mr. Crenshaw. Thank you, Chairwoman Fletcher; thank you, 
Ranking Member Randy Weber, for having me. This is a huge 
interest of mine, and I appreciate this Committee, by the way, 
for allowing my bill, the Leading Act, which repurposes grant 
money from DOE for carbon capture in the natural gas sector, 
for adding that to legislation in this Committee.
    This is a really important subject because the question is 
not whether about supporting environmentalism or supporting 
cleaner air. The question is about how we do it and what the 
best way to do that is, and playing to our strengths as 
Americans.
    And that strength is innovation. That strength is 
technology. We could do something like implement a Green New 
Deal and ban fossil fuels, and we would take care of 15 percent 
of emissions worldwide, OK? We would also destroy our economy, 
and we'd have a negligible effect on the environment.
    There are other ideas out there from leading Presidential 
candidates to, say, ban fracking. That would be an interesting 
shock to the economy and really put any of these ideas right 
out of business.
    It would also be interesting because, Dr. Krishnamoorti, as 
you mentioned in your testimony, there's been a 20 percent 
reduction in emissions per capita largely because of natural 
gas. There was another study by DOE that showed if we replaced 
China's and India's coal-burning oilers with natural gas, they 
would reduce their emissions by 40 percent. You add carbon 
capture to that mix, you're talking 90 percent reductions.
    So focusing on what works is so unbelievably important, and 
I want to get to that and what barriers are in the way, what 
government needs to do to help this and actually get us to an 
eventual net zero emissions.
    Dr. Krishnamoorti, you briefly touched on this, and I saw a 
little bit more of it in your written testimony, about 
reclassifying CO<INF>2</INF> as a commodity as opposed to a 
waste, and that's interesting. Is there a regulatory barrier 
there?
    Dr. Krishnamoorti. Yes. It is considered a waste item 
today. It is considered not a commodity that can be 
economically advantaged for a broad group of people, and 
therefore cannot access common carrier pipelines. That is 
perhaps the biggest challenge today to moving CO<INF>2</INF> 
around.
    Mr. Crenshaw. Is that an EPA (Environmental Protection 
Agency) regulation?
    Mr. Weber. [Inaudible.]
    Dr. Krishnamoorti. I'm not sure. I can get back to you on 
that.
    Mr. Crenshaw. Mr. Kennedy, I'd like to go to you on 
everything you all have done. I want to ask where you're at now 
financially. I mean, we have to get companies like yours in a 
place where you want to do it, where the financial incentives 
work and it's viable. Are you at that place now?
    Mr. Kennedy. I think as we've said before, the economics on 
these projects are very, very challenging. So we eagerly await 
the 45Q guidance that we're awaiting from the IRS, and we 
continue to think that the technology providers need to drive 
cost out of the project to make things more attractive to new 
investors.
    Mr. Crenshaw. So without the 45Q credits, you don't think 
your project would be viable?
    Mr. Kennedy. I think new projects are very, very difficult. 
We're a little bit unique in the fact that we are vertically 
integrated. We have an ownership interest in the oil field. I 
think going forward you're going to see utility companies or 
power plant owners want to do a fence-line sale of 
CO<INF>2</INF>2.
    Mr. Crenshaw. Could you briefly talk about the new source 
review regulations? Is there a reason you guys didn't retrofit. 
You decided to build an entirely new facility. Is that because 
of regulations like the new source review?
    Mr. Kennedy. It did not play into ours. We were challenged 
by the Department of Energy to demonstrate we could do this 
without having an impact on energy prices. So as opposed to 
being parasitic to the host coal unit and taking power and 
steam from that unit, we opted to build the cleaner burning gas 
co-gen facility. So that resulted in not only getting our power 
and steam, we have excess power off that facility that we sell 
into the grid. So we've actually added power supply.
    Mr. Crenshaw. And as far as scaling up these technologies, 
we've been talking about that constantly. We agree on a 45Q tax 
credit, for instance. We agree on grant money from DOE for 
pilot programs. Again, that's basically what my legislation is. 
What else? What other barriers are there?
    As we go to Mr. Dewing as well, or anybody really can 
answer this, what other barriers are there that we need to get 
rid of, and what do you need help with? Where is that light 
touch of assistance that we need?
    Mr. Dewing. I think the continued support, the DOE support, 
the grants to get projects going, the 45Q helps. For EOR, we 
can sell the CO<INF>2</INF>, so that helps. If no one needs the 
CO<INF>2</INF>, then we don't get that money.
    But the key thing to me is where do you put it. We need the 
ability to put the CO<INF>2</INF> somewhere, so we need the 
pipelines, we need the connections, we need the storage 
locations. So if you can have the infrastructure for 
CO<INF>2</INF>, I think that would be a seed for lots of 
smaller projects, because then they can see where that CO<INF>2</INF> 
can go.
    Mr. Crenshaw. OK.
    Dr. Krishnamoorti, I want to go back to you. I mentioned 
before that there's talk of actually banning fracking right 
now. Could you just comment on what the consequences of 
something like that would be, if it happened tomorrow?
    Dr. Krishnamoorti. If it happened tomorrow, the growth in 
the Permian that we anticipated going from 3.5 million barrels 
a day to 7.5 million barrels a day would stop, and that's the 
kind of thing that has not only given us energy independence 
but has enabled us to be a net exporter of crude.
    Mr. Crenshaw. What's the environmental impact, though?
    Dr. Krishnamoorti. It can be done well. Fracking can be 
done well, and we've seen that being demonstrated many, many 
times.
    Mr. Crenshaw. Let me be more specific. What would the 
environmental impact be on emissions if we just stopped using 
natural gas all of a sudden?
    Dr. Krishnamoorti. We've got to find the energy somewhere. 
We need a lot of energy. We would probably go back and re-start 
coal-fired power plants. We might start to look at expanding 
some of our nuclear power resources.
    Mr. Crenshaw. Would there be most likely an increase in 
emissions or a decrease?
    Dr. Krishnamoorti. Increase.
    Mr. Crenshaw. Absolutely, an increase. That would be a 
problem, because I don't think we all want that.
    I'm not sure what my time is, but I'll keep talking as long 
as I can.
    Chairwoman Fletcher. It's 10 minutes.
    Mr. Crenshaw. Thank you, Chairman, very much for indulging 
me. Thank you all for being here.
    Chairwoman Fletcher. Thank you very much, Mr. Crenshaw.
    As we've all noted, 5 minutes goes very quickly, so we will 
probably do another round of questions.
    But I'm very pleased to introduce another one of our 
Houston colleagues who has joined us today, and I'm proud and 
pleased to recognize Mr. Green for 5 minutes.
    Mr. Green. Thank you very much, Madam Chair. And I'll thank 
my colleagues as well for allowing me to be an interloper 
today. I'm not of this Committee of jurisdiction, but I do 
believe that as a member of the Houston community and a Member 
from Texas it is appropriate that I be here. So, thank you very 
much.
    Houston is known as the energy capital of the world. My 
intelligence indicates that approximately a third of all of the 
jobs are somehow connected to Houston. This is important, but 
I'd like to talk about it from another perspective.
    Houston also has the largest medical center in the world, 
and this medical center is larger than the average city in the 
United States of America. We have a space port. We are 
consumers of energy as well, and I think that we have to look 
at it also from how our institutions will be impacted if we're 
not efficacious with our carbon management.
    My question would go to you, and I trust that I will 
enunciate it properly, Dr. Krishnamoorti. My question to you, 
sir, is on the importance of carbon management solutions in 
terms of preserving existing jobs. Houston employs a lot of 
people. The port is here. We have two international airports. 
Houston could be a greatly different city if we don't get this 
right and manage the carbon capture properly.
    So I yield to you for your sage advice.
    Dr. Krishnamoorti. Thank you so much, Congressman Green.
    Mr. Green. Thank you.
    Dr. Krishnamoorti. It's a pleasure to have you here at the 
University of Houston.
    We talked about the issue of affordable, reliable energy 
that drives the planet. But at the same time we have to address 
climate change risk, and there is no better industry that can 
deal with the carbon issue at scale than the energy industry, 
and it must be done in partnership with that industry in order 
for us to do it at the right scale and also do it where there's 
an economic advantage.
    We have focused a lot on two aspects: Carbon capture and 
sequestration, both of which are costs, substantial costs. How 
do we find value in this business; that's the part we're 
focused on. How do we find utilization for CO<INF>2</INF>? How 
do we make it an economically viable product?
    It's in partnership with the industry. It's in partnership 
with the National Labs, working with places like NETL to find 
ways to make it a creative solution rather than just be a cost 
burden on society. That's the only way it can be done, and 
there's no better industry than the energy industry to do it.
    Mr. Green. I want to thank you for your sage advice.
    Madam Chair, as I explained earlier to you and I'll explain 
to everyone, I really am in the middle of doing something else 
someplace else, and I have to get back to what I've been 
engaged in. But I think this is an important hearing, and I'm 
honored that you would allow me to be a part of it today. I 
thank you and my colleagues for allowing such.
    My belief is that there is not a problem that Houston can't 
solve. We have been innovators. We are the folk who decided 
that a ship channel ought to be inland, so we built the ship 
channel. Houston gets it done.
    I thank you for this opportunity, Madam Chair, because you 
are getting it done.
    I yield back the balance of my time.
    Chairwoman Fletcher. Thank you, Mr. Green. We appreciate 
you being here.
    I really appreciate so many of our Houston Members working 
together on this issue, and there seems to be a consensus among 
the group that we have a lot more questions. I think we've seen 
that from everyone. So thank you so much for joining us, Mr. 
Green.
    For those who are able to remain, we'll do a second round 
of questions, and I'll continue to recognize everyone for 5 
minutes as we go.
    Certainly, several of the things you've said have given us 
more questions, and, of course, my colleagues have also raised 
some questions that I also have. So I'm going to go ahead and 
start the second round for 5 minutes.
    I really want to touch on two things. There's something 
very specific that you raised, Dr. Krishnamoorti, that I want 
to go back to. Several of us up here are also on the Committee 
on Transportation and Infrastructure, so your comments about 
the infrastructure for carbon dioxide were important and 
interesting. I think that what we've seen is that there are 
challenges with some of the sequestration sites. There's a need 
for transportation.
    I was interested in your written testimony about the 
potential for dual-use LNG (liquified natural gas) and carbon 
dioxide ships as an alternative transportation method. So if 
you could just expand a little bit beyond pipelines or, A, what 
does the pipeline need; and, maybe B, what innovative other 
options do we have for transporting carbon dioxide from the 
source to the injectionsite without adding large amounts of 
carbon emissions in the process?
    Dr. Krishnamoorti. Thank you so much. So, we do ship LNG 
and LPG (liquefied petroleum gas) out from the Gulf of Mexico 
ports all over the world. There are countries like Korea, 
Japan, which import a lot of this and do combust those fluids. 
They do have incentives there for carbon capture, and they are 
ready to capture that carbon and trade it. So it's a small 
engineering feat that needs to be achieved, which is, can we 
use those ships to reverse-transport CO<INF>2</INF> back to the 
U.S.? And the second part of this is, would that 
CO<INF>2</INF>, because CO<INF>2</INF> is a global challenge, 
be something that would receive the 45Q credit? Because, again, 
we have offshore--the Gulf of Mexico is a ripe target to 
sequester CO<INF>2</INF>. We could do this with no additional 
substantial transportation costs. That breaks down one of the 
biggest barriers to doing this. We could do this from Europe, 
we could do this from Asia. Both of these places are receiving 
our LNG and LPG, and that would be a substantial effort to 
really transform the way we think about sourcing 
CO<INF>2</INF>.
    Chairwoman Fletcher. Terrific. Thank you so much.
    And then my next question, which will probably be my last, 
I'm going to start with Mr. Jenvey and kind of work this way. 
But I'm interested more generally--as I mentioned in my first 
round of questions here, we sit up here as Members of Congress 
wanting to know what we can do to further the goals that we are 
talking about here today.
    So, Mr. Jenvey, in particular, you talked a lot about what 
we need to do to maintain our leadership position in the United 
States around the world on this technology and these issues. Do 
you know whether some of the things that we have already worked 
on--for example, the Fossil Energy Research and Development 
Act--take the right steps to maintain that goal? And what other 
things, or maybe what are the priority things that you and 
everyone on the panel would recommend to us to do to make sure 
that we're continuing to advance in this area and remain the 
world leader?
    Mr. Jenvey. Thank you. So, definitely continue to do what 
you're doing. The unwavering support that Congress has provided 
over the last couple of decades really has, of course, 
established this technology and capability the United States 
has. I would say this is really probably the time. It's a 
matter of timing, and now is the time to really now make sure 
that this happens and double down on some of those research, 
development, and demonstration support to help, indeed, the 
valley-of-death technologies that you've invested in already, 
to help them get to market.
    There's a market evolving there, and particularly here in 
Houston, along the Gulf Coast. We have already the world's best 
CO<INF>2</INF> storage geology sitting underneath our feet. We 
have LNG plants, petrochemical facilities, other industrial 
facilities here, and really if we can get this done here as a 
cluster, it's a real shining light to the rest of the world as 
well.
    So I'd encourage you to, from a national Federal 
perspective, double down on the R&D and really deliver the 
value that it has that the previous investment has got to, and 
also here locally in Houston work with the public-private 
partnerships that already exist and are interested in doing 
things to help them deliver something that will make sure that 
Houston remains the energy capital of the world.
    Chairwoman Fletcher. Thank you, Mr. Jenvey.
    Mr. Dewing, do you want to weigh in on what the 
congressional priorities--what you think would be most helpful 
for us to focus on?
    Mr. Dewing. We'd like to see the continued support of our 
projects. Port Arthur was successful because of funding. We 
need that initiative, that funding to get things moving and 
develop further. We're seeing it elsewhere in the world with 
governments in Holland and the U.K. sort of discussing ways and 
means of getting projects going. So I think you're already two 
or three steps ahead, and we'd like to continue that.
    Chairwoman Fletcher. Thank you.
    Mr. Kennedy?
    Mr. Kennedy. Yes, I would agree also. We probably have not 
stressed enough the role that the DOE has played in our 
project. We're coming up on 10 years of a relationship with the 
DOE on the Petra Nova project, and they have done a major 
amount of not only helping us financially but just spreading 
the word of the project. They've been responsible for hundreds 
and hundreds of visitors internationally and domestically 
coming to the site and spreading the information on technology. 
So their ability to continue to build on what they've done and 
continue to do the R&D work that's needed to advance the 
technology would be very helpful.
    Chairwoman Fletcher. Thank you, Mr. Kennedy. That's a great 
segue over to Dr. Long.
    Dr. Long. OK. Thanks. I would suggest that we need to up 
our investment in the basic research side of things. There's 
been huge advances in how we make porous materials and 
membranes that can affect and impact and improve the way we do 
energy in the future. Right now there's not enough support for 
that science. Taking it, for example, and creating something 
like an energy hub for carbon capture, I don't know why we 
don't have this yet. We have one for solar fuels, we have one 
for batteries. But things like that, long-term support of new 
science, we've got to feed technologies into the pipeline for 
the future.
    Chairwoman Fletcher. Thank you, Dr. Long.
    Dr. Krishnamoorti?
    Dr. Krishnamoorti. Thank you so much. And just to follow 
up, I would suggest that that hub needs to be carbon capture 
and utilization.
    Mr. Weber. And in Houston. Just saying.
    Dr. Krishnamoorti. And in Houston, absolutely.
    [Laughter.]
    Dr. Krishnamoorti. We have already made that pitch.
    The other one that I think we need to really be fostering 
is disruptive technologies. For instance, something that Nigel 
mentioned, modular distributed capture. Right now, 45Q does not 
advantage that type of capture in any shape or form. One 
hundred thousand tons a year is a lot of CO<INF>2</INF>. We can 
find technologies that can be deployed at much smaller levels 
that need to be advantaged.
    The second point is the utilization side of the business 
has not received as much interest from funding. That must be 
made a priority.
    Chairwoman Fletcher. Thank you, Dr. Krishnamoorti.
    I have once again gone over my time, so I will now 
recognize Mr. Weber for 5 minutes.
    Mr. Weber. Thank you.
    Dr. Krishnamoorti, in your conversation with Dr. Babin you 
said that gasification would never receive the light of day. 
Was that coal gasification process?
    Dr. Krishnamoorti. Yes, coal gasification.
    Mr. Weber. OK, thank you. I just wanted to clarify that.
    Mr. Dewing, in your conversation with Dr. Babin you talked 
about gasification, working with China, for example. In my 
research I ran across an article from Science Direct about 
China from 2014 where they talked about the amine-based post-
combustion capture, that it was a problem for China, these 
coal-fired power plants. That's 5 years old. Has that changed?
    Mr. Dewing. I don't know. I'm not sure whether that has 
changed, but we're looking at converting, doing pre-combustion 
capture.
    Mr. Weber. This is post-combustion.
    Mr. Dewing. Air Products' view is to convert the coal, the 
hydrocarbon upstream, make hydrogen, which can be burned and 
used in any way. It can be distributed. To capture the CO<INF>2</INF> 
there.
    Mr. Weber. OK. I wanted to clarify that.
    A question for all the panel. Mr. Jenvey, we'll start over 
here so you don't feel left out.
    As I said earlier, we need to bring everybody along to 
this: Industry, government, fossil fuel industry, clean energy, 
everybody, our environmental industry friends. How do we do 
that?
    Mr. Jenvey. That's a very good question, how do we do that. 
So, I've always believed that just sticking with the value that 
this has to our industry and to society is the clearest way to 
really establish----
    Mr. Weber. When you say value, do you mean the monetary 
value? Clean air, better environment, less climate change, if 
you will, all the while maintaining a focus on energy and the 
monetary part of that.
    Mr. Jenvey. Yes, sir.
    Mr. Weber. OK.
    Mr. Dewing, do you agree with that?
    Mr. Dewing. I think so, yes.
    Mr. Weber. I'll make it real easy on you all. Mr. Kennedy?
    Mr. Kennedy. I do as well.
    Mr. Weber. OK. None of them will dare say no.
    [Laughter.]
    Mr. Weber. Dr. Long?
    Dr. Long. [Inaudible.]
    Dr. Krishnamoorti. Likewise.
    Mr. Weber. Very good. As long as it's in Houston. You left 
that part out.
    [Laughter.]
    Dr. Krishnamoorti. It's got to be in Houston because this 
is the only place where you can solve it.
    Mr. Weber. Absolutely.
    So, let me keep going. Direct carbon capture from air, and 
I'll start with you, Mr. Kennedy. Number one, how do we do 
that? Are we able to do that? Very quickly; I only have about 
2-1/2 minutes left. And is that competition for what you all 
are doing?
    Mr. Kennedy. So, probably my colleagues on the panel here 
are much more versed in that technology than I am. I have been 
really focused on Petra Nova technology. But I think from a 
capital perspective, I think it's more capital intensive for 
the CO<INF>2</INF> benefits you get, so definitely a need to 
continue to evaluate that technology and look for ways to try 
to drive the cost down.
    Mr. Weber. Right.
    Dr. Krishnamoorti, I think you talked about the air--we 
call them small modular reactors in the nuclear industry. 
That's great, but how do you get that infrastructure to now 
transport? Like I said, when life gives you CO<INF>2</INF>, 
make it energy. How do you do that with SMRs, or whatever you 
want to call them?
    Dr. Krishnamoorti. Deployment of direct air capture is 
actually the easiest thing because they're small, they're 
modular, and they use atmospheric air. So you're not trying to 
go off a petrochemical plant or a refinery.
    Mr. Weber. Right. So you put them over in a truck, you say 
this truck is going down the highway, whether it's carrying 
propane or whether it's carrying CO<INF>2</INF>, oxygen, 
gasoline, whatever it is, and you can take them to a 
centralized distribution point?
    Dr. Krishnamoorti. The way we think about it, we go to a 
producing oil field or a producing wind farm and set up a 
direct air capture there. So you capture the CO<INF>2</INF> and 
then you pump it into the ground right there.
    Mr. Weber. OK. At a wind field?
    Dr. Krishnamoorti. A wind farm, because you get cheap 
electricity.
    Mr. Weber. And you pump it into the ground at the wind 
farm?
    Dr. Krishnamoorti. Or you ship it to an oil field and you 
pump it down.
    Mr. Weber. There you go.
    Dr. Krishnamoorti. All in pretty close proximity in west 
Texas.
    Mr. Weber. Dr. Long? I've got 45 seconds.
    Dr. Long. Yes, it's absolutely true that it's a much more 
energy intensive process to remove the CO<INF>2</INF> at these 
very dilute concentrations from air. This is a fundamental 
science problem, how do we do that at maximum efficiency. We 
need to invest in research to do that. I think no matter what, 
it's an important issue.
    Mr. Weber. That's a good point.
    Madam Chair, I yield back 15 seconds.
    Chairwoman Fletcher. Thank you, Mr. Weber.
    I'll now recognize Mr. Cloud for 5 minutes.
    Mr. Cloud. Thank you. Again, this is a wonderful 
opportunity for us all to work on this issue. I appreciate the 
consensus and having a forward-looking approach to meeting 
these challenges, and realizing actually that the world's 
demand for energy growing is actually a good thing. That's 
people coming out of poverty. That's people finding mobility, 
being able to heat their homes for the first time and those 
kinds of things. So I've always thought that the answer to that 
is for America to meet the challenge, because we will always do 
it a lot more responsibly than many of the other countries 
across the pond, so to speak, who don't have our best interests 
in mind.
    Going along a little bit with what Mr. Crenshaw was saying, 
I'd like to ask you, Mr. Krishnamoorti, if we were somehow to 
constrict the fossil fuel industry, we understand the economic 
impact it would have, the national security implications along 
with that. Could you also speak to--you said this a number of 
times, that it's the only industry really capable of addressing 
this issue. Now, if that industry was not to have the economic 
thriving that we currently see, what would that do to the 
research and technologies currently being developed to answer 
some of these challenges?
    Dr. Krishnamoorti. I think, as you would probably have 
noticed, most of the large deployments of carbon capture 
projects are being done by the oil and gas industry, whether it 
is Chevron, whether it is Oxy, whether it is Exxon Mobil. 
Clearly, they see that this can be created for them to be a 
part of the ecosystem.
    I assert that this industry is critical because of the 
scale of the problem. Thirty-six gigatons globally is not going 
to go away when making plastics. You've got to make plastics. 
We probably use about 2 percent of that, and that would satisfy 
all the plastic needs of the world. If we're trying to make 
cement, we'll probably use about 5 percent. If I make methanol, 
if I make gasoline, I could use a substantial part of that 36 
gigatons of CO<INF>2</INF>. That's the reason why this industry 
knows how to make hydrocarbons. We know how to use natural gas. 
We know how to use other light hydrocarbons in order to make 
economically--still competitively, but economically you can 
make hydrocarbon fuel.
    Mr. Cloud. That's the most likely path forward is to 
continue to advance these technologies to market viability.
    Dr. Krishnamoorti. Absolutely.
    Mr. Cloud. Mr. Jenvey, you mentioned that there's 12 other 
projects going on around the world, 12 or 15 projects. I'm 
curious from the U.S. remaining the competitive leader, and 
also any national security implications. Could you give us the 
lay of the land of what's going on globally and how the U.S., 
can stay ahead of that? And if any of you have anything to add 
to what Mr. Jenvey says, please do.
    Mr. Jenvey. Thank you. So, yes, those projects are in 
different regions, a number in China, the Middle East, and in 
Europe, of course. Australia has also had a number of projects 
and has a couple of projects coming through into those advanced 
stages of development, yet there definitely is a marketplace 
out there.
    I would say historically there has been these waves of CCUS 
investigation and development. But a lot of the time, 
unfortunately, the projects in those other regions haven't 
actually materialized fruit to a final investment decision, as 
opposed to here in the United States. So where those projects 
are being developed globally, they then reach a final 
investment decision. They then don't have the policy, the 
supportive regulatory frameworks, or indeed the capability and 
the backbone of the oil and gas industry and the rest of the 
industrial infrastructure here in the United States. So they 
do, then, hit a certain limit in their ability to actually do 
these projects indeed at these large scales. But there are a 
number of other projects globally.
    Mr. Cloud. That's interesting.
    Mr. Dewing. I can comment on some other projects. The Port 
of Rotterdam is looking at putting in CO<INF>2</INF> pipelines 
so that a number of companies can feed into that CO<INF>2</INF> 
line for sequestration. Norway is looking at two projects. The 
U.K. has three or four that are being proposed at the moment 
which are a consortium of companies, BP being a leading company 
there. So there's a lot of interest, a lot of projects going 
through, but whether they actually all come to something or not 
will be interesting to see. One of them in Norway is an 
interesting one, the Northern Lights. They're actually looking 
at shipping CO<INF>2</INF>, so they've developed a ship design 
that can take CO<INF>2</INF> at minus 25+ C and move it as a 
liquid around. So there's interest elsewhere now.
    Mr. Cloud. My time is up. Thank you, I appreciate it.
    Chairwoman Fletcher. Thank you, Mr. Cloud.
    Dr. Babin?
    Mr. Babin. Yes, ma'am. Thank you so much.
    Mr. Dewing, what sort of responses are you seeing from many 
of the large-scale energy companies to the implementation of 
these new CCUS technologies? What kind of responses?
    Mr. Dewing. Very positive. I think we talk to large energy 
companies, they want to work in joint ventures, they're 
interested in the technology, especially the technology we've 
developed at Port Arthur. That's a great reference for us. It 
has new absorption technology we want to use again. So we are 
trying to work very closely with Shell, with BP, with Exxon 
Mobil, a number of companies.
    Mr. Babin. That's good news, very good news.
    Along the lines of what my colleague, Mr. Crenshaw, was 
talking about, Dr. Krishnamoorti, what would be the result of 
banning all new offshore drilling, as well as the fracking, 
that several of the candidates running for president have 
promised to do? Where would that leave our Lone Star State of 
Texas?
    Dr. Krishnamoorti. I think the problem is actually global, 
because the issue has been we have ignored the offshore 
industry production for a while. It can be done safely, it can 
be done reliably, and safeguards can be put in place. There has 
been a huge change in the offshore industry. We can take people 
out of danger, doing it automated. There's regulatory issues 
that prevent us from doing automated work in the Gulf of 
Mexico. The North Sea, they're doing it today. We are falling 
behind in those technologies already.
    If we ban that, we will lose a huge source of hydrocarbon 
energy that we will continue to need, not only in the U.S. but 
also globally.
    Mr. Babin. I hope our friends on the other side of the 
aisle can hear that, because we may as well pack up and go home 
here in the State of Texas. As you just pointed out, it would 
have a global negative effect. A lot of the folks that are 
now--someone mentioned a while ago--newly heating their homes. 
The new energy sources that we're having and that are being 
disseminated around the world would dry up. Thank you very 
much.
    Also, Mr. Kennedy, in your prepared testimony you described 
how the carbon dioxide captured at your plant is, in turn, used 
for enhanced oil recovery, or EOR. We talked about it a little 
bit, but can you please explain for many of us exactly how the 
EOR process works? As briefly as possible. And then what are 
the benefits and limitations of this new technology?
    Mr. Kennedy. Yes, sure, and I can be very brief because I 
am not a reservoir engineer. Actually, the use of CO<INF>2</INF> 
for enhanced oil recovery has been around since the 1970s, for 
example. In the Permian Basin. What's unique about our process 
is the source of CO<INF>2</INF>, not the use of the 
CO<INF>2</INF>. So the CO<INF>2</INF> is basically delivered at 
injection pressure and injected into the reservoir. At West 
Ranch we use a strategy called wagging, which is water 
alternating gas. So they basically put water in, get pressure 
in the reservoir up, put in CO<INF>2</INF>. CO<INF>2</INF> 
uniquely interacts with the locked or blocked molecules of oil, 
loosens those up, and allows us to push them through with water 
for recovery. When you get the production fluids back you 
basically separate the water, you reinject it, you separate the 
gas, recompressurize it, and reinject it, and then you have the 
oil available for market.
    Mr. Babin. Great. If we did not follow this technology up, 
CCUS, would we lose an enormous opportunity to be able to 
produce more energy using waste products? One day maybe it will 
be a commodity, but right now it's a waste product.
    Mr. Kennedy. That's correct. Several have mentioned here 
that there is a demand for CO<INF>2</INF>. So to the extent 
that more CO<INF>2</INF> supplies could be provided, it will 
help that process.
    Mr. Babin. Right. It's certainly an advantage, that's for 
sure.
    I will yield back, Madam Chair. Thank you.
    Chairwoman Fletcher. Thank you very much, Dr. Babin.
    Mr. Crenshaw?
    Mr. Crenshaw. Thank you, Madam Chair.
    Dr. Long, I want you to expand on the CCUS energy hub that 
you mentioned. What exactly does that look like, and would that 
solve some of the problems you said about fundamental science 
needing to be focused on more?
    Dr. Long. Yes. The tools that scientists are using today 
are completely different from the tools that were used when our 
current carbon capture technologies were discovered. We've made 
advances in how to build materials and control absorption 
within materials and diffusion through porous materials because 
of those tools, because of advanced computational techniques, 
and that's not being leveraged here for new carbon capture 
technologies, and it's also not being leveraged for 
utilization.
    Mr. Crenshaw. Does that need authorization from Congress?
    Dr. Long. I believe the energy hubs are approved through 
this Committee. Having these hubs--what these hubs mean is 
sustained long-term funding for scientists to think about how 
do we do this in the most energy-efficient and cost-effective 
manner, how do we create materials that will revolutionize the 
future ways in which we do CO<INF>2</INF> capture and perhaps 
convert it into all kinds of products. That funding for 
fundamental science to drive future technology, there should be 
a lot more of it in this area.
    Mr. Crenshaw. I understand.
    Mr. Dewing, in your testimony you talk about the 
retrofitting of existing hydrogen facilities, and I want to go 
back to this New Source Review. Are you familiar with New 
Source Review?
    Mr. Dewing. I'm afraid not.
    Mr. Crenshaw. OK, then I won't ask that question. We'll 
just move on.
    I will say it's nice to be in a hearing where we have a lot 
of viable solutions, and we've discussed a few of them. We've 
talked about energy hubs and the authorization needed for that; 
interesting ideas like reclassifying CO<INF>2</INF> as a 
commodity. It's interesting because it really is. It's used in 
EOR. You can make plastics. We could possibly one day make a 
gasoline out of it. Maybe this gets back to something we should 
research as a fundamental science and energy hub. I also heard 
it can be used for agriculture, of course. I mean, you can talk 
about a greenhouse that needs multiple times the CO<INF>2</INF> 
that is present in normal air, algae farms, things like that. 
There really are algae farms truck in CO<INF>2</INF> every 
single day. There really is a market for that.
    It sounds like we need 45Q flexibility, additional 
flexibility in that, to provide for the incentives to actually 
capture CO<INF>2</INF> and then utilize it. CO<INF>2</INF> 
infrastructure, pipelines. We need to stop vilifying pipelines 
in this country; that would be great. It would be great if the 
northeast wasn't relying on shipping from Russia to get their 
natural gas and heating in their homes. DOE grants have proven 
to be a fundamental part, it sounds like, in incentivizing and 
getting this technology off the ground.
    Let me be clear, Mr. Kennedy. You guys are at a point where 
you can operate in a stand-alone way; is that correct? Or do 
you still need those grants and still need those tax 
incentives? I mean, where are you?
    Mr. Kennedy. Yes, economics continue to be challenging. 
Like I mentioned, we're a little bit uniquely structured given 
the way we are with the oil field and stuff. But the focus on 
this next generation is hopefully driving cost down. But I 
think any new project, regardless of first generation, second 
generation, is going to need 45Q to support that.
    Mr. Crenshaw. Right.
    Mr. Kennedy. And government grants as well as additional 
R&D.
    Mr. Crenshaw. Yes, and that's great to hear, and these 
aren't enormous costs on the economy. We can get you started, 
we can maintain some kind of incentive structure, and as the 
technology improves, there's a real market for CO<INF>2</INF> 
where eventually you can stand on your own. When we're talking 
about solutions--and again, I want to get back to this main 
truth, which is that America is the innovation capital of the 
world, and ignoring that or destroying that capability by 
destroying the fossil fuel industry is actually bad for the 
environment. It seems counter-intuitive, but it's really not, 
and we've proven why today, because the rest of the world, and 
especially countries that emit far more carbon dioxide than we 
do, are relying on America to be the innovation engine of the 
future. We can't ignore that, and we have to be doing exactly 
what we've been talking about today to incentivize that and 
really keep this miracle going where we can actually have our 
cake and eat it too. I mean, that's a pretty great thing. We 
can continue economic development, we can continue being the 
greatest and richest country in the world, helping other 
countries continue to develop, but also clean up the 
environment, and I think that's a really cool thing.
    So I just want to say thank you again for having me at this 
wonderful Subcommittee hearing.
    Chairwoman Fletcher. Thank you so much, Mr. Crenshaw.
    And thank you all for being here today and for your 
testimony.
    Before we bring the hearing to a close, I want to mention 
just a few things and go back to what I said at the beginning 
when we started the hearing this morning. I think we've seen 
today that in this Congress, this Committee has a strong track 
record of working together in a bipartisan way to solve 
problems and to support science, and that is critically 
important.
    I think there is much consensus among my colleagues here 
today about the challenges and opportunities before us and, as 
always, the collaboration and cooperation amongst the 
witnesses, amongst the research institutions, industry, and our 
government agencies. What we've seen today and what we've heard 
about I think is very encouraging and is certainly a critical 
part of our path forward, and it's consistently what we see on 
our Science Committee.
    So I thank you for your work, I thank you for your work 
together, and I thank you for your time here this morning.
    The record of the hearing will remain open for 2 weeks, and 
that means that Members can add additional statements or submit 
additional questions, so we may have additional things coming 
to you.
    Certainly, we had a lot of great questions here today and 
really appreciate your great answers, your time, and your 
commitment on this issue.
    So, with that, the witnesses are excused and the hearing is 
now adjourned.
    [Whereupon, at 12:13 p.m., the Subcommittee was adjourned.]

                                Appendix

                              ----------                              


                   Additional Material for the Record




          Presentation submitted by Dr. Ramanan Krishnamoorti
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]          
          

           White Paper submitted by Dr. Ramanan Krishnamoorti
    White Paper can be found at: https://pdfs.semanticscholar.org/970b/
62daa17a329
a98f03bcd33233199f42c5bcf.pdf?_ga=2.85876569.1336167076.1574703669-
796248
402.1574703669
             Report submitted by Dr. Ramanan Krishnamoorti
    Report can be found at: https://uh.edu/uh-energy/research/ccme/
content/uh-energy-ccme-white-paper-series-03-2019-web.pdf
               Presentation submitted by Mr. Nigel Jenvey
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               


                                 <all>
</pre></body></html>
